<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND 
        INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 1, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Christopher S. Bond (chairman) 
presiding.
    Present: Senators Bond, Stevens, Shelby, Craig, DeWine, 
Hutchison, and Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF SEAN O'KEEFE, ADMINISTRATOR

            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Welcome. The Senate VA-HUD Appropriations 
Subcommittee will come to order. Today we welcome NASA 
Administrator Sean O'Keefe and our other guests from NASA 
joining us today to testify on the President's fiscal year 2004 
budget request for the National Aeronautics and Space 
Administration, NASA.
    At the beginning of the year, I expected the NASA budget 
hearing to be a hearing of hope and optimism, of a renewed 
commitment to the International Space Station, as well as a 
continued emphasis on the importance of space and earth 
sciences. In some ways, I have not been disappointed. Mr. 
Administrator, since you took the helm of NASA, I have been 
impressed consistently with your efforts and commitment to 
ensuring the fiscal integrity of NASA's programs and activities 
while also refocusing the priorities on the International Space 
Station to ensure the station can meet its goal of its primary 
application as a working on-orbit science lab.
    Unfortunately, with the tragic loss of the Columbia orbiter 
on February 1, NASA is again at a crossroads where the Nation's 
manned space flight program must be re-examined so that we 
understand fully the risk of life that is part of every 
mission. We also must acknowledge the bravery and heroism of 
every astronaut in the space shuttle program since manned space 
fight is inherently risky and will remain inherently risky for 
the foreseeable future.
    I have been very much impressed with the Columbia Accident 
Investigation Board (CAIB) with Admiral Gehman at its helm. 
Because of the Board's fine work, I believe that we are 
beginning to gain the needed insight that will allow us to move 
past the Columbia tragedy and take the necessary steps to 
minimize the risk of a recurrent tragedy. It's only been 3 
months since the Columbia tragedy and I applaud the Board for 
its substantial progress made already on the very complex and 
serious issues that underlie this disaster.
    Without regard to the Columbia tragedy, NASA is requesting 
some $15.5 billion for fiscal year 2004, an increase of some 
$130 million over the 2003 funding level. The proposed 2004 
budget for NASA was submitted prior to the Columbia tragedy and 
the ripple effect of this tragedy inevitably will impact the 
future funding of manned space programs as well as other 
missions in the space and earth sciences programs. For example, 
we provided a down payment of $50 million for NASA to respond 
to the Columbia tragedy and we expect these costs to rise. We 
also have a very tight allocation this year for fiscal year 
2004, which regrettably could result in some significant 
reductions to a number of VA-HUD funded programs, including 
NASA programs, especially new starts. Unless we can get some 
relief, we are in for a very difficult time. However, I assure 
you that we will continue to explore avenues of getting some 
relief.
    The future of the space shuttle is a key issue for NASA as 
well as this subcommittee. I support the shuttle program and 
manned space flight, but NASA and the Columbia Accident 
Investigation Board will need to identify the key safety issues 
that must be addressed to support continued manned space 
flight. In particular, what are the key causes of the Columbia 
tragedy? What's the useful life of the remaining orbiters? And 
what alternative or successor programs to the shuttle program 
are under review by NASA? And of course, what's the timeline 
and as we must address here, the estimated cost to meet all 
these concerns?
    In addition, what's the impact of the Columbia tragedy on 
the International Space Station? I'm gratified that our 
partners in the international community have responded to the 
immediate needs of the International Space Station since the 
Columbia tragedy. This commitment by our international partners 
was most evident this past Monday when a Russian Progress 
delivered a new crew of two to the International Space Station 
with the intent of relieving the current crew of three who have 
been on station since November 25 of last year. This 
international cooperation bodes well for the future of the 
station and for our relationship with our partners to the 
International Space Station. Nevertheless, the subcommittee 
needs to understand the future expectations and potential cost 
issues facing the Space Station under this international 
partnership.
    Finally, what's the impact of the shuttle program on other 
missions, including those which are part of the earth and space 
science program? What missions have been delayed and what 
additional costs can be expected will be incurred?
    We have a number of questions on these issues and other 
concerns that I will either raise today or issue as questions 
for the record.
    We are supposed to have a vote beginning at 10:15, which is 
going to cause us an interruption. Hopefully we will see how 
far we can get and then we will recess the hearing, and whoever 
gets back here first will restart the hearing.
    But now I turn to Senator Mikulski for her comments.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman and 
welcome back. We're glad to see you on your feet again. Senator 
Bond had hip replacement surgery.
    I think we're all clear that on February 1 our Nation 
suffered this tragic loss when the Space Shuttle Columbia 
exploded and seven astronauts lost their lives, and Israel also 
shared in our grief. We all agree that the best way to honor 
those astronauts is to get back in flight again.
    But Senator Hutchison, before I talk about Columbia, I also 
would like to thank and acknowledge the wonderful work that the 
people of Texas did, working so faithfully, assiduously, and 
swiftly to recover the debris that is such an important part of 
the investigation. So for all those people in Texas and 
Louisiana, and the people coming forth with their video film, I 
think it has been a heroic and extraordinary effort, and a 
special salute to the people of Texas. It was a hard job but 
again, Texas, the Lone Star State is going to help us get back 
to the stars.
    But when we look at where we are now, I think we're all in 
agreement that there needs to be a thorough and rigorous and 
candid investigation of what went wrong. The Columbia Accident 
Investigation Board is conducting their analysis and they 
report to the Congress and the American people, and from what 
we can see, it has been with candor.
    But what I'm concerned about is as we get that report, will 
we have a direction and will we have the resources to proceed? 
My No. 1 priority, both as when I chaired this subcommittee and 
then as the ranking member, has been shuttle safety. It has 
been a shared bipartisan commitment that we would have shuttle 
safety, and this is what we need to be sure that we have 
focused on, that safety must come first no matter who is the 
chair and who is the ranking member.
    For the last 2 years we've included report language stating 
that the safety of the shuttle and its astronauts must be a 
priority and we, I think, included funds to do this. And so, my 
questions today will focus on shuttle safety.
    Also, though, there are the long-range issues at NASA that 
must be addressed. The future of the shuttle, whether the 
shuttle is whither thou goest, will it be able to go. It also 
points out an aging workforce and an aging infrastructure, and 
I am deeply concerned about these challenges.
    And then of course, the work that we continue to need to do 
in the area of space science and aeronautics that is so 
important to us. The President's budget is $15.5 billion. This 
is just a little above the 2003 level. It is a status quo 
budget. So I'm not sure, where is the money to make sure that 
the shuttle can fly again, where are we going to go in space 
science, and also, how will we pursue some very interesting new 
initiatives?
    For 2004, the budget proposes close to $4 billion for the 
shuttle. That's one-third of NASA's entire budget. This 
includes $281 million to upgrade the shuttle and its 
infrastructure. We have to see what this means and we have to 
know what your plans are.
    We have a big question mark about the Space Station budget. 
What's going to be the impact of the Columbia on the station, 
what are our international partners doing, and the whole issue 
of the astronauts currently there. Is the Soyuz or Progress 
reliable enough to get us through this difficult phase?
    There are of course the science issues. Where are we on the 
Hubble, how would we be able to service the Hubble, what will 
be able to service the Hubble? The Hubble is very special to 
those of us in Maryland because so much of the analysis is done 
over on the Johns Hopkins campus, and Goddard is its catcher's 
mitt. Hubble needs to be addressed, what we do about that, and 
where are we in the next generation.
    Then of course there is this issue of an aging workforce 
and aging systems. I understand 20 percent of NASA's scientists 
and engineers are eligible to retire within 5 years. The Apollo 
generation is retiring and again, most of the NASA centers are 
40 years old. What are we doing to get ready for the future, 
what are we going to do about those issues?
    Those are a quick thumbnail of what we want to talk about, 
the broad policy issues, and then focusing on the 
appropriations necessary to do that. And Mr. Chairman, I will 
pursue other amplified remarks as we go to the questions.
    Senator Bond. Thank you very much, Senator Mikulski. I 
share, as well, in your congratulations and thanks to the 
people of Texas, New Mexico, Louisiana and others. Your 
comments about shuttle safety are right on. We have pursued 
that. And we have been discussing the problem of the aging 
personnel at NASA, and this is a huge bow wave question coming 
down the pike that we need to review.
    I'm going to turn now to the others for their introductory 
comments. If the buzzer rings for the vote, I will turn the 
gavel over to Senator Mikulski or to anybody else who will stay 
here so we can continue with the opening statements. It takes 
me a long time to get there and to get back, so I'm going to 
start whenever it does ring.
    But with that, I believe the first one to join us was 
Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman, and I do 
appreciate the comments of both the Chairman and the Ranking 
Member regarding the people of Texas. I have been to the area 
since the Columbia tragedy and they just were so happy to be 
able to be helpful, not happy about the situation, but they 
felt such a part of finding the answer, and the people there 
felt that it was a very important mission they had, they took 
it that way and wanted to make the contribution that I do 
believe they have made.
    I want to talk just for a minute about certainly the future 
of the shuttle, because I think it is just absolutely essential 
that we renew our commitment to the shuttle and to the manned 
shuttle, because NASA has done so much space exploration, they 
have done in the field of research and technology growth. It is 
one of the reasons that the United States has maintained its 
superiority in economic growth in the world.
    And all of the jobs that have been created from this, even 
the Columbia, have made huge contributions in scientific 
research because they were able to feed back every day, every 
hour, every minute the results of their tests. They actually 
did do some research that might one day lead to advances in the 
elimination of prostate cancer, and there were many other 
scientific experiments that we were able to retrieve even from 
the Columbia.
    I think there is no substitute for having people involved 
in the research that we are conducting. So the idea of sending 
up unmanned shuttles, which can be effective in some ways and 
for some purposes, but not as a substitute for having people 
there to do the experiments and to correct things and to 
adjust.
    Secondly, I do want to say in the budget request that I'm 
pleased to see the support for the base budget for the National 
Space Biomedical Research Institute for $30 million. I think 
this is one of the great success stories of our ongoing efforts 
with space exploration, and I think there is so much more that 
we can do in this area and we need to make sure that we have 
the capability to bring back the data that we have, and also 
have a place then to dissect and use the information. So, I am 
very pleased about that.
    In fact, I have to say that I believe NASA is getting its 
budget priorities straight. I was one of the harshest 
questioners of you, Mr. O'Keefe, because I was worried very 
much that NASA was drifting from their core experimental and 
technological advance mission. And when you came on board, you 
wanted to take a look and see what the priorities should be, 
you had your scientific mission and you said yes, in fact we 
should continue with scientific research, and you are taking 
that ball now and I think running with it as this budget shows. 
So I want to say, I am pleased with that.
    The other thing I just want to mention regarding manned 
spacecraft and shuttles is that I believe the investigation has 
been open and candid, which is very important, and certainly 
something that we learned was not the case for the Challenger, 
and it took a longer time.
    But I do hope that as things are beginning to come out, as 
this is beginning to come to closure, that you are going to 
come back to us with a system of communications from the bottom 
to the top, so that we will know that even maybe some 
irrelevant observations will be brought forward, because it's 
worth it to separate the wheat from the chaff in this instance. 
I don't know and I assume you don't know if something could 
have been done after the takeoff that would have made a 
difference, but there clearly were concerns at the bottom, and 
I think that having a communication system to assess those 
concerns and determine if in fact there is something that could 
be done is essential for manned spacecraft.

                           PREPARED STATEMENT

    So, I will say with that, that I do think we're getting on 
track, you have taken the time and I just, I have never seen a 
sadder face on any person than I saw on you following the 
Columbia accident, and I know you have taken to heart all of 
the issues that have been brought forward, and I think you are 
doing the right thing by keeping it open. And I want you to 
continue to do the right thing by keeping our priorities, 
keeping our focus, and making sure we have communications 
systems in place to implement that vision. Thank you.
    [The statement follows:]

           Prepared Statement of Senator Kay Bailey Hutchison

    Mr. Chairman, I am pleased to return to the VA-HUD/NASA 
Subcommittee, and I am more encouraged by this year's NASA budget than 
I have been in years past.
    I want to start by commending the thousands of people who have been 
involved in the recovery efforts for the Space Shuttle Columbia since 
the tragic accident on February 1, 2003. I appreciate NASA 
Administrator O'Keefe being here today to update us on the Columbia 
recovery and NASA's overall mission.
    With recovery efforts headquartered in Lufkin, Texas, significant 
progress has been made as over 5,000 workers and dozens of aircraft 
have been searching for Columbia pieces every day. The main search 
areas in Texas span along the Columbia's flight path which is 10 miles 
wide and 240 miles long. Altogether over 80,000 pieces of debris have 
been found--this amount of debris represents 38 percent of the Space 
Shuttle Columbia.
    The Space Shuttle Columbia was an important mission for scientific 
research, with more than 80 experiments aboard. With a satellite 
downlink between the Columbia and Johnson Space Center in Houston, 
scientists were able to retrieve a tremendous amount of data in real-
time. On the Columbia, a large amount of the science was aimed at 
saving lives. With the astronauts working in 12-hour shifts so that 
experiments could continue around the clock, the crew was able to 
provide a large body of knowledge. One study involved the growth of 
prostate cancer tissue, which may potentially lead to advances in 
treatment.
    Altogether the Columbia carried four tons of scientific gear, and 
many of the experiments were designed to keep scientific studies 
underway until the International Space Station is complete. We can be 
proud of the Columbia crew for their efforts, and their ultimate 
sacrifice, to save lives here on Earth.
    On a related scientific research point, I want to say I am pleased 
to see support in the NASA Fiscal Year 2004 Budget request setting a 
base budget for the National Space Biomedical Research Institute 
(NSBRI) of $30 million. The NSBRI is one of the great success stories 
that has drawn many outstanding biomedical scientists into space life 
sciences research to solve problems and risks associated with long 
duration human space flight.
    In my view, NASA is getting its budget priorities back on track. As 
we discover the cause of the Space Shuttle Columbia tragedy, we must 
next ensure that we continue to develop a vision for the future of 
human space flight.
    Thank you.

    Senator Mikulski [presiding]. Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you. Mr. O'Keefe, I want to welcome 
you here. I have a number of questions for later on. We 
appreciate what you're doing, the leadership that you brought 
in difficult times with NASA. All of us who sit on this 
committee and have funded NASA for many years, most of us, if 
not all, believe that NASA is still vastly underfunded, 
considering the potential there, the missions and so forth, and 
I want to work with you and the administration to try to get 
more funding for vital programs that come under your 
jurisdiction at NASA.
    I am just pleased that we have profited so much from the 
basic research and the technology that has been brought forth 
from your NASA's endeavors. So with that, I'm going to try to 
vote and I will be back later to get your questions. Thank you.
    Mr. O'Keefe. Thank you, sir.
    Senator Mikulski. Thank you, Senator Shelby. Senator 
DeWine.

                    STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Mr. O'Keefe, thank you for joining us, and 
I just want to congratulate you for the excellent job that you 
have done as administrator and really the great job that you 
have done in light of this horrible tragedy that has hit NASA. 
I think everyone is very proud of the job that you have done 
and we appreciate that very much.
    I want to join my colleague from Alabama and also say that 
I believe that NASA is underfunded and we're going to try to 
over time to work on that issue as well. I look forward to 
hearing your testimony and I appreciate you being here. Thank 
you, sir.
    Mr. O'Keefe. Thank you, sir.
    Senator Mikulski. The committee will now stand in recess 
subject to the return of the chair, and at that time we will 
take the testimony of Sean O'Keefe, the Administrator.
    Senator Bond [presiding]. All right, we will reconvene the 
hearing and now we are ready for the testimony of Administrator 
O'Keefe. Sean, please go ahead.

                       STATEMENT OF SEAN O'KEEFE

    Mr. O'Keefe. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here. With your permission, I will summarize 
the statement and ask that the full statement be inserted in 
the record.
    Senator Bond. Without objection.

                    FISCAL YEAR 2004 BUDGET REQUEST

    Mr. O'Keefe. This is an opportunity to appear before the 
committee to discuss the President's Fiscal Year 2004 Budget 
proposal for $15.5 billion for NASA. This is a $500 million 
increase over last year's proposal in the 2 or 3 months after 
the submission of this one, for 2003.
    That request demonstrates the administration's continued 
confidence in NASA's ability to advance the Nation's science 
and technology agenda. It's also an opportunity, I must say 
from a personal standpoint, with the committee staff along, to 
appear here before the committee. You always treat me, Mr. 
Chairman and Senator Mikulski, as the equivalent of an amicus 
brief or friend of the court in that regard, and I thank you 
for that courtesy.
    The budget, we believe, is responsive and funds our highest 
priorities. It's credible. It builds and reserves for 
technically challenging programs, fully accounts for program 
costs, and we hope and like to think that it's a compelling 
effort which enables new initiatives tied to our strategic 
objectives. It advances our mission goals through a stepping 
stone approach for exploration objectives, and provides 
transformation of technology and capabilities for all programs 
we have open.
    The proposals embody a new strategic direction for NASA and 
how we plan to shift resources towards longer-term goals 
outlined by our mission, and it's summarized in the 2003 
strategic plan which is on the website, and there are a couple 
remarkable features to it.
    The first one is, it's short, it's readable, it's written 
in English, and it's on a website in time for submission of the 
President's budget proposal submitted in September, as it 
typically is in most Federal agencies and departments, so 
hopefully that would get some currency across the board.
    Before describing some of the objectives, sir, I would 
appreciate during my opening statement to describe a brief 
update on the Shuttle Columbia recovery efforts.

                    COLUMBIA RECOVERY EFFORT UPDATE

    The ground, air and water search for Columbia is complete. 
The base camps at Nacogdoches, Palestine, Corsicana and 
Hemphill are either closed or in the process in the next few 
days of closing. The main consolidation and operations point at 
Lufkin will close by the 9th of May, and all the effort has 
been timed not around a calendar, but based on completion of 
the recovery itself.
    The charts that we've brought along here, which I got when 
I was out there a few weeks ago reviewing the current progress, 
each of those were an attempt to give you sort of a sample of 
it, because it goes on forever. But each of these grids that 
they approach here, they would designate in a green color once 
they have completed that, that is, the U.S. Forest Service, EPA 
and NASA, and other folks that are actually searching the area. 
At this point, they are all covered. They have covered every 
single acre of the 550,000 acres that stretch along that blue 
strip there from south of Dallas-Fort Worth to the Texas-
Louisiana border across Toledo Bend, which represents about a 
250-mile range, about 10 miles wide, and every acre of that, 
which accounts roughly to the equivalent size of the State of 
Rhode Island.
    Senator Bond. Sean, let me interrupt. Is there any pattern 
where there was significant debris, is there some kind of 
submission you can give us to show where it was found and does 
the location have importance in the assessment of the causes?
    Mr. O'Keefe. It did indeed. As a matter of fact, the 
pattern is, you can see the blue line intensifying there in 
that area. If you saw it up close, it would just be an area 
south of Dallas-Forth Worth to the far left, and the Texas-
Louisiana border is right there at the point where it's light 
green shifting to the kind of brownish. That blue line is the 
intensity, the primary areas where it was picked up. The 
wreckage field, again, is about 10 miles wide, but that's where 
it was intensely focused.
    You're exactly right, there were certain parts and certain 
pieces which were picked in certain areas, that did after time 
start to unfold a pattern of exactly how this occurred. The 
left wing, which much has been written about, the wreckage is 
much further downstream and closer towards the Corsicana-
Nacogdoches area which is on the left side of the debris field. 
The right wing, which stands to reason, stayed in place for a 
longer period of time and was among the last things to break 
up, as well as the crew compartment, et cetera, and these were 
closer towards the Hemphill area, which is right near the 
Louisiana border.
    So from that, we piece together a much more comprehensive 
understanding of precisely how this happened, and the Columbia 
Accident Investigation Board is coming to a conclusion on 
hypotheses and theories based on exactly that sequence, not 
only what you find but also where you find it and exactly what 
condition it's in as we move along.
    During the course of this last 90 days, all these teams 
have collected 85,000 pounds of debris, and that represents 
about 40 percent of the Columbia's weight. Of more than 80,000 
specific items that were picked up, approximately 76,000 have 
actually been tagged and identified. I was just down at Kennedy 
Space Center Monday evening, and they have identified the 
better part of them, and of the 76,000 they have actually 
arrayed out about 10 percent of it. That demonstrates exactly 
what the pattern of the wreckage will tell us occurred on that 
terrible morning.
    Of that grouping, about a thousand pieces came from the 
left wing. They have now been able to piece that together and 
to reassemble significant portions of the left wing. It will be 
nice to examine the intensity of the heat, as well as the heat 
flow demonstrated on that particular event.
    On the 29th, I met with the search teams in Lufkin, Texas. 
Again, we have essentially closed all of the four primary base 
camps, and NASA has formally acknowledged and appreciates very 
much the efforts that the folks in East Texas and West 
Louisiana have contributed in this particular effort. It is 
indescribable, the activities that all of the 120 agencies from 
the Federal, State and local activities have contributed, as 
well as that of the communities, which has been just 
overwhelming, inviting volunteers as well as Federal public 
servants into their homes during the course of this very, very 
arduous effort.
    The initial prediction was that we might find and recover 
on the order of 10 percent, maybe. We have exceeded that by a 
factor of 4, and that is largely due to the extraordinary 
efforts on the part of an awful lot of folks who live in the 
east Texas area who have been just incredible partners and 
assistance in all this.
    So Senator Mikulski, you are exactly right. I believe the 
folks in the Lone Star State have helped us return this 
particular case.
    The independent Columbia Accident Investigation Board, as 
you mentioned, Mr. Chairman, under the leadership of Hal 
Gehman, has made significant progress in organizing the work 
and again, looking at not only the facts and evidence that came 
back from the mission control information, but also a lot of 
the OEX recorder that was recovered a few weeks back. To your 
question again, Mr. Chairman, that was located in the area very 
much towards the southeast portion of this stream, right near 
the Louisiana border.
    It was found on the second pass over that same acreage. 
There has really been an incredible case of not only a lot of 
human effort of literally walking over every single acre, of 
examining the debris field itself, but also using that analysis 
to inform where other parts may be.
    To your observation, Mr. Chairman, the OEX recorder was in 
a specific compartment that we found several different pieces 
of in a very specified grid near Hemphill. Having returned 
after covering it the first time and not having found the 
recorder, and having seen the analysis that indicated here were 
all the other parts we did find, a lot of our folks asked the 
U.S. Forest Service, the EPA and our people, to go back and 
look over that acreage one more time, it covered about 5 acres, 
because if it was going to be found, it was going to be found 
in that one spot.
    On that second pass, they found it. It was really using the 
technology and analysis of what we found, where we found it, 
how it was recovered, what condition it was in that really led 
us to a lot of the efforts that have gone on here. So it has 
been an enormous effort to inform the nature of the 
investigation, and this board has really valued that 
contribution.
    We have kept the pledge, and I appreciate your comments, 
all the opening comments from members of the committee, that we 
have indeed handled this is an open manner. We are candid with 
the Accident Investigation Board even if that means that some 
of the earlier findings or theories prove to be opposite of 
that, that's fine. We're hoping that the findings and facts 
will speak for what occurred here and we continue to work with 
them to determine the nature of how this event occurred.
    I concur with you, sir, that Admiral Gehman has been 
incredibly diligent in working through this effort, and they 
have been very forthcoming in all the public hearings and press 
conferences describing exactly the direction they are moving. 
They are narrowing in on a set of theories that will be 
released in the weeks ahead.

                   HUBBLE SPACE TELESCOPE ANNIVERSARY

    I would also like to point out that the past week, on April 
24 we celebrated the 13th anniversary of the launching of the 
Hubble Space Telescope. In honor of that anniversary we 
released the Hubble image that was passed around before you, 
which we have characterized as the perfect storm of turbulent 
gases shot. It has a more formal title, the Omega Nebula, but 
it was one that was just released this past week. The image 
captures a small region within a very specific area known as 
the Omega or Swan Nebula, located about 5,500 light years away 
from the constellation Sagittarius.
    There is another one we're going to release next week, and 
as a preview of coming attractions, we have passed that around 
as well, which is the Helix Nebula. It is also just a stunning 
piece. It will be released early next week from the Hubble 
Institute as well.

                    FISCAL YEAR 2004 BUDGET REQUEST

    The Fiscal Year 2004 Budget contains 9 specific 
initiatives, 5 initial goals that again, are built on a plan 
that I like to think is very short, easily readable and 
specific.

                           PROJECT PROMETHEUS

    They include first and foremost, an effort to really 
address the power generation or power limitations and 
propulsion limitations that we currently wrestle with on every 
mission we are engaged with. We are looking for a new power 
generation and propulsion capability in the time ahead to 
accomplish not only speed, but on orbit kind of examination of 
any of the outer planetary missions we may engage in.
    Project Prometheus is our effort to do that, an ambitious 
effort to develop and to build nuclear reactors for the purpose 
of providing propulsion and power generation capabilities. We 
tend to enlist the experience of better than 40 years of our 
friends in the naval reactors community to design reactors that 
are significantly smaller than that but generate about a factor 
of 100 greater power than we currently deal with today on every 
single space probe mission.

                       HUMAN RESEARCH INITIATIVE

    The second major area I think is of particular focus as 
well, and it's also a limitation that we have dealt with for a 
long time and need to wrestle and understand better how to 
conquer. We developed a human research measure, the expanded 
biomedical research and technology development to enable long-
duration missions on the International Space Station or any 
other vehicle as potential means of missions beyond low orbit.
    Benefits that come from this are again, just this past 
June, less than a year ago we set the longest duration U.S. 
space flight record of 196 days, Dan Bursch and Carl Walz 
accomplished that task. That was about the time it takes to get 
from here to Mars, and that's it. That's the longest we've ever 
had anyone.
    So the idea of experiencing that particular effort is a 
real challenge, because the physiological consequence of that 
is just downright profound. During the course of any stay on 
the International Space Station, every astronaut and cosmonaut 
receives the equivalent radiation of 8 chest x-rays a day.
    During the course of the missions, as we see in the case of 
Expedition 4, that Dan Bursch and Carl Walz worked through, as 
well as those who returned, Ken Bowersox, Don Pettit and 
Nikolai Budarin, they are coming back this weekend after 5\1/2\ 
months up there. They will likely experience what we typically 
find of about a 30 percent muscle mass and about a 10 percent 
bone mass degeneration.
    If we can figure out ways to arrest this in this human 
research initiative that we have budgeted for and specifically 
provided a very aggressive effort to understand, better arrest 
that degeneration as well as provide for the appropriate 
shielding from exposure, that will have applications not only 
for long duration space flight and the opportunities for future 
space exploration, but it has direct applications for all of us 
here on earth.
    If we can determine how to arrest that, just the bone mass 
deterioration issue, that in turn may make you one of the few 
folks who will have to go through hip replacement in the 
future, Mr. Chairman, and hopefully accomplish that so that 
those who follow won't have to suffer the challenges that 
you're wrestling with right now.
    Senator Bond. It might be simpler if they didn't play 
rugby, but go ahead.
    Mr. O'Keefe. We'll have to look at some life habit kind of 
changes as well, I guess, but it nonetheless is an opportunity 
to apply all kinds of different applications and approaches to 
these sets of challenges here on Earth.

                   OPTICAL COMMUNICATIONS INITIATIVES

    The third area that we emphasize, the optical 
communications initiative is an investment in revolutionary 
laser communications technology that we intend to demonstrate 
on a mission to Mars later this decade, by transmitting large 
volumes of information that right now take us a ferocious 
amount of time.
    The effort that currently is underway takes us the better 
of about 2 years, these last 2, to map about 20 percent roughly 
of the planet Mars. With this particular initiative, you can do 
that in about 4 months for the entire planet. That's the 
difference in speed of communications as well as capabilities.

                       BEYOND EINSTEIN INITIATIVE

    The fourth area that you will see emphasized here is a 
beyond Einstein effort, to look at a couple of specific 
observation observatories: A deep-space gravity wave detector, 
LISA; as well as Constellation-X, a mission probing to look at 
the edge of black holes, both of which are to look at those 
theories and specifically capitalize on those efforts and 
understand what's involved.

                   CLIMATE CHANGE RESEARCH INITIATIVE

    The fifth is the climate change research initiative. The 
President has directed all of us within 11 different agencies 
to engage in and be involved with, to collect the information, 
to accelerate the research, and to key scientific uncertainties 
that inform the kind of changes that are occurring within our 
own climate here and the environment that is affected by the 
way we conduct our habits as human beings, and to collect that 
data and then inform what the appropriate protocols would be to 
alter that set of habits.

                      AVIATION SECURITY INITIATIVE

    The sixth is the aviation security initiative to expand 
research to develop technologies that will in turn, we believe, 
reduce vulnerabilities of aviation to terrorist and criminal 
attacks. The proposition that anyone could use a commercial 
airliner for the purpose of terrorizing us again ought to be 
eliminated by simply the use of technology, which would 
eliminate their capability to take over aircraft in those 
circumstances.

          NATIONAL AIRSPACE SYSTEM TRANSFORMATION AUGMENTATION

    Seventh is the national aerospace system transformation 
augmentation, which translates as trying to do better airspace 
management. It's one thing to encounter as we do nowadays, 
since September 11, a very real change in the way we conduct 
our activities for commercial transportation, and the amount of 
time we wait to go through security efforts. But it's another 
thing to have to have aircraft stacked up waiting for departure 
and landing opportunities. There's a way, I think, of improving 
that efficiency through airspace management.

                 QUIET AIRCRAFT TECHNOLOGY ACCELERATION

    Quiet aircraft technology certainly is a persistent issue 
of trying to deal with urban noise pollution and this is one of 
the things we specifically could improve.

                          EDUCATION INITIATIVE

    Finally and maybe most important in terms of our effort to 
inspire the next generation of explorers as part of our mission 
objective, we have pursued the Educator Astronaut Program which 
was announced in late January and since that time, there have 
been over 1,600 applications from educators around the country 
who seek to be astronauts as part of that effort. Better than 
8,600 people were nominated during the course of that time. The 
applications do close tomorrow, and in the course of that 
effort of that 1,600 applications, we will review in order to 
select 3 to 6.
    So the interest in the wide range of activities in the 
astronaut corps certainly is unabated as a consequence of the 
tragedy of February 1. Indeed, it may have even heightened 
since that time.
    Within the next few weeks, NASA will make 50 awards for 
NASA Explorer Schools, involving unique partnerships within 
NASA and the school teams at the middle school grade levels 
across the country to join educators, administrators, students 
and families, to sustain involvement with NASA research 
discoveries and missions.
    The budget also builds on the work of this committee and 
the Congress in the February omnibus appropriations bill 
containing many needed elements to help address key power, 
propulsion, transportation and human capability restraints.
    The budget specifically funds the International Space 
Station as you said, Mr. Chairman, in your opening statement. 
There is no difference to speak of between three different 
estimates of what it will cost, we know what that's going to 
be, and we can now develop a plan which will complete the 
International Space Station as soon as we can return to safe 
flight. It accommodates our international partner elements, 
maintains progress on research priorities, as Senator Hutchison 
alluded to in her opening statement, and continues to build out 
the International Space Station in order to then organize all 
research through a nongovernmental organization like the Hubble 
Institute to specifically organize up with the International 
Space Station the research we will do in the years ahead.

                  INTEGRATED SPACE TRANSPORTATION PLAN

    The Integrated Space Transportation Plan, which again, we 
appreciate the endorsement and support of this committee as you 
did in the Fiscal Year 2003 Budget, to specifically make 
investments in not only the service operational life efforts 
for upgrades and modernization, but the Orbital Space Plane, to 
get that started as a crew transfer vehicle between here and 
the International Space Station. And the next generation launch 
technology efforts in propulsion, structures and operations, to 
provide that future replacement for shuttle in time.

                          BUDGET RESTRUCTURING

    Along with the strategic plan that I mentioned, we're also 
submitting an integrated budget performance document and 
performance accountability report, all earlier than is 
typically required by law, in order to give some meaning to the 
context of the budget that we had planned, developed and 
released on February 3.
    The documents reflect agency improvement in specific areas 
dealing with budget restructuring in accordance with the 
committee's instruction in that regard; full-cost accounting 
and management, in order to reflect the total cost of what it 
takes to do something as opposed to having it spread throughout 
the budget and trying to find what the pieces or parts are. You 
can now look at the Fiscal Year 2004 Budget and see what the 
total expense is in order to actually carry out some task.

                     INTEGRATED BUDGET PERFORMANCE

    The third area is an integrated budget performance effort 
to try to demonstrate the linkages between performance and what 
the budget request is that we have pending before you, to 
inform the Congress of promised cost, of the schedule, of 
technical parameters to improve projects, merging the budget 
with performance plans specifically.

                 INTEGRATED FINANCIAL MANAGEMENT SYSTEM

    Then the integrated financial management system, which 
again, the endorsement of this committee has been invaluable to 
proceed with. It is our third attempt doing this and I want to 
advise you now, this one is successful, it's being implemented 
now. The last three centers, Goddard, Dryden Flight Center out 
in California, and the final one is--I'm sorry, the third one 
escapes my memory for the moment, but the other three, they 
will be implemented by June. The rest are already on this 
system and that core financial system is operating today. So by 
July, there will be one financial system at the National 
Aeronautics and Space Administration.

                      AUDITED FINANCIAL STATEMENTS

    Finally, on this vein, we have completed and have extended 
dialogue last year, if you recall before this committee, on the 
audited financial statements. We have received a clean opinion 
this year, unqualified, our books are in order. We have a lot 
of work to do to maintain that, and a lot of what's been 
involved in implementing the Integrated Financial Management 
Program into that one core financial system is going to help us 
achieve that year after year. I don't anticipate a repeat of 
last year's disqualified opinion.

                       HUMAN RESOURCE CHALLENGES

    And in conclusion, let me just offer a thought that Senator 
Mikulski introduced in her opening statement as it pertains to 
the human resource challenges we have. Indeed, that is a matter 
that we are really deeply concerned about, but can get ahead of 
now if we do some things today and in the future, very near 
future, in order to look to recruit, retain, as well as 
professional development of those who are within the Agency 
today.

                           PREPARED STATEMENT

    The President submitted legislation back in June of last 
year that would provide those specific tools. There are two 
pieces of legislation introduced, with Senator Voinovich here 
in the Senate, as well as over in the House, have introduced 
legislation that specifically moves those initiatives forward, 
and we seek enactment of those as soon as is possible in order 
to develop those tools, use them, and get ahead of this 
particular bow wave of retirements that we see looming here in 
the very, very near future. So it's an opportunity today to 
deal with that, as opposed to dealing with it in a crisis 
condition just a couple years from now.
    Mr. Chairman, again, thank you very much for your 
indulgence. I appreciate the opportunity to be here.
    [The statement follows:]

                   Prepared Statement of Sean O'Keefe

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before the Subcommittee today to discuss the 
President's fiscal year 2004 budget proposal of $15.47 billion for 
NASA. The President's request demonstrates the Administration's 
continued confidence in NASA's ability to advance the Nation's science 
and technology agenda.
    We come together to discuss NASA's space research and exploration 
agenda, and our efforts to advance aviation safety and efficiency in 
this Centennial of Flight year, still mourning the tragic loss of the 
courageous crew of the Space Shuttle Columbia. Before I discuss the 
details of the budget, I would like to provide the Subcommittee an 
update about the on-going investigation.
    Since the tragic loss of Columbia, our work continues to honor the 
solemn pledge we've made to the families of the astronauts and to the 
American people that we will determine what caused the loss of Columbia 
and its crew, correct what problems we find, and safely continue with 
the important work in space that motivated the Columbia astronauts and 
inspires millions throughout the world. A grateful Nation has laid to 
rest with full honors, six American heroes: Rick Husband, William 
McCool, Mike Anderson, Dave Brown, Kalpana Chawla and Laurel Clark. The 
people of the state of Israel also paid their final respects to 
Israel's first astronaut, Ilan Ramon. At all these ceremonies, NASA was 
represented by myself and/or other appropriate Agency officials. We 
continue to be sensitive to, and supportive of, the needs of the 
astronauts' families and will be at their side as long as our support 
is desired by them.
    I am pleased to note that the Columbia Orbiter Memorial Act was 
part of the ``Emergency Wartime Supplemental Appropriations Act, 
2003,'' signed by the President on April 16, 2003. I want to personally 
thank Senator Stevens for introducing the legislation on March 18, and 
Senators Bond and Mikulski for co-sponsoring this legislation that 
honors the fallen heroes of STS 107. NASA is grateful for your 
leadership and support. The legislation authorizes construction of a 
memorial at Arlington National Cemetery near the memorial to the crew 
of the Space Shuttle Challenger. The legislation also authorizes NASA 
to collect gifts and donations, over the next five years, for the 
Columbia Memorial. It also permits NASA to erect other appropriate 
memorials or monuments with private donations. The law allows NASA to 
transfer collected money or property for the fund to the Secretary of 
the Army to defray expenses. Memorial fund procedures will be 
established and announced in the near future.
    Columbia Recovery operations, which began as soon as it became 
clear that Columbia was lost, have continued on the ground, in places 
along the Shuttle's reentry path, stretching from San Francisco, 
California to Lafayette, Louisiana. We continue to send everything we 
find to the Kennedy Space Center in Florida for assembly and analysis 
as part of the Columbia Accident Investigation Board's comprehensive 
accident investigation. In addition, we are appreciative of the fact 
that the fiscal year 2003 Omnibus Appropriations Act included $50 
million in funding to help pay for the costs of the recovery operation 
and accident investigation by the Columbia Accident Investigation 
Board. We have established a new accounting code in the NASA financial 
system to capture the agency's costs associated with Columbia recovery 
and investigation, titled Columbia Recovery and Investigations. We are 
monitoring very closely the costs associated with this effort and we 
will ensure that the Congress is kept apprised of this effort. The 
Federal Emergency Management Agency is shouldering the resources 
required by other public agencies at the Federal, state, and local 
levels.
    The ground, air, and water search for Columbia debris is 
essentially complete. This search has been extremely helpful to the 
investigation. NASA is deeply grateful for the support we have received 
during recovery operations from the more than 6,000 men and women from 
the Department of Homeland Security, Federal Emergency Management 
Agency, Environmental Protection Agency, Federal Bureau of 
Investigation, Department of Defense, Department of Transportation, 
U.S. Forest Service, U.S. Park Service, Texas and Louisiana National 
Guard, state and local authorities, and private citizen volunteers who 
have helped us locate, document, and collect debris.
    I am saddened to note that one of the helicopters searching for 
debris from the Space Shuttle Columbia crashed in the Angelina National 
Forest in east Texas on March 27. The pilot and a Forest Service Ranger 
were killed in the crash, and three other crewmembers were injured. Our 
thoughts and prayers go out to the families of the helicopter crew 
members killed in the accident. We deeply empathize with their loss at 
such a trying time. We also pray for the speedy recovery of the injured 
crew members.
    I returned to Palestine, Lufkin and Hemphill, Texas on April 16, 
where I met with many of the volunteers in the surrounding area who are 
involved in the Columbia recovery effort. I saw firsthand their 
dedication and I can report to the Subcommittee that morale is high and 
the continued commitment is strong to recover as much of Columbia as we 
can. The NASA family is grateful for their assistance. On April 29, I 
met again with the search teams as NASA formally celebrated and 
acknowledged all of their outstanding contributions since February 1. 
As of that time, all ground, air and water search operations were on 
track for completion in early May and the search base camps will be 
closed by May 10.
    At the peak of the Columbia debris recovery efforts nearly 6,000 
personnel working in Texas and Louisiana were involved in Shuttle 
recovery operations. The field operations involve three main 
components--ground, air, and water search efforts--to search an area of 
250 miles long by 10 miles wide. In each of these operations the 
searchers, NASA engineers, and EPA technicians are working side-by-
side.
    The ground search depends on fire crews from 42 States, operating 
out of four base camps, supported by two local logistics centers. So 
far, they have searched over 525,000 acres. The air search depended on 
35 helicopters operating out of two air bases, each staffed by forest 
service pilots and NASA engineers. They have searched nearly 2 million 
acres.
    The search of Lake Nacogdoches and the Toledo Bend Reservoir 
depended on the collaborative efforts of 66 United States Navy and 
state Police divers and a team of side-scan and multi-beam sonar 
analysts. In total, 3,100 targets were cleared in Toledo Bend, 365 in 
Lake Nacogdoches and many targets in a dozen small ponds throughout 
East Texas. The total water area searched was nearly 18 square nautical 
miles. No Columbia debris was recovered.
    The meticulous search for evidence is resulting in important clues 
that will assist the work of the Columbia Accident Investigation Board. 
As of April 28, nearly 85,000 pounds of debris have been recovered, 
representing approximately 38 percent of Columbia's dry weight. Of the 
more than 80,000 specific items recovered from the accident, more than 
nearly 76,000 have been identified, with 702 of these coming from the 
left wing of the Orbiter.
    Through the assistance of research institutions and helpful 
citizens, we have received video tapes that document Columbia's final 
moments as it streaked across the southwestern United States. The 
videos pick up Columbia as it approached the coast of California and 
cover most of its flight path toward the skies over East Texas, with 
the exception of some gaps in video coverage of Columbia's flight path 
over sparsely populated areas of eastern New Mexico and northwestern 
Texas. The video imagery is being used along with radar and telemetry 
data to help engineers determine the potential location of debris that 
was shed from Columbia.
    The Independent Columbia Accident Investigation Board under Admiral 
Gehman has made significant progress in organizing its work to 
determine the cause of the accident. NASA has kept its pledge to fully 
cooperate with the work of the Board, and has taken the necessary steps 
to ensure the Board's complete independence.

             IMPLICATIONS OF SUSPENSION OF SHUTTLE FLIGHTS

    The ISS Expedition 6 crew--Commander Ken Bowersox, Science Officer 
Donald Pettit and Cosmonaut Flight Engineer Nikolai Budarin--have been 
performing science while performing routine ISS maintenance on orbit. 
The Expedition 7 crew--Edward Lu and Yuri Malenchenko--arrived at the 
ISS early Monday, April 28, and received turnover briefings from the 
Expedition 6 crew who returned to Earth on Saturday, May 3 in Soyuz 5S. 
There are no threats to the ISS or its crew in the near-term, and we 
are working options to be able to sustain both over the long-term. All 
remaining U.S. manufactured ISS hardware for the Core Complete 
configuration has been delivered to KSC and element ground processing 
is on schedule. Delivery of Node 2, built for NASA by the European 
Space Agency, is on schedule for shipment to the Kennedy Space Center 
later this month. Ground processing will continue until ready for 
Shuttle integration. Only one ISS mission, STS-118, in the critical 
path to U.S. Core Complete was manifested on Columbia. The primary 
mission objective of STS-118 is the transfer and installation of the S5 
Integrated Truss assembly to the S4 Truss. While the manifest for the 
remaining three Orbiters will need to be adjusted to accommodate this 
flight, all other previously scheduled ISS assembly missions will be 
flown in their original order. A revised U.S. Core Complete assembly 
schedule will be confirmed when the Shuttle is ready to return to 
flight status.
    In the absence of Space Shuttle support, NASA is addressing 
contingency requirements for the ISS for the near- and long-term. As I 
said earlier, there is no immediate danger to the Expedition 6 or 7 
crew. In order to keep the crew safe, however, we must ensure that they 
have sufficient consumables, that the ISS can support the crew, and 
that there is a method for crew return available. Working closely with 
our international partners, we have confirmed that there is sufficient 
propellant on-board the ISS to maintain nominal operations through the 
end of this year. With the docking of the Progress re-supply spacecraft 
on February 4 (ISS Flight 10P), the crew has sufficient supplies to 
remain on the ISS through June without additional re-supply. As we move 
beyond June, however, potable water availability becomes the 
constraining commodity. We are currently working closely with our 
Russian partner, Rosaviakosmos, to explore how best to address this 
issue on future near-term ISS re-supply missions. A Soyuz spacecraft 
(ISS Flight 6S) that brought the Expedition 7 crew to the ISS will 
remain docked and serves as a rescue vehicle for crew return in the 
event of a contingency. These Soyuz spacecraft have an on-orbit 
lifetime limitation of approximately 200-210 days, and must be replaced 
periodically.
    The ISS, now in its third year of human occupancy, represents an 
important milestone in history. Due to this capability, humans are now 
able to permanently occupy the realm outside of Earth and are actively 
conducting ambitious research spanning such scientific disciplines as 
human physiology, genetics, materials science, Earth observation, 
physics, and biotechnology.
    Columbia was the orbiter that was to have been used for the 4th 
servicing mission of the Hubble Space Telescope (HST) planned for 
November 2004. NASA can continue to service the HST, and any Orbiter is 
capable of supporting HST servicing missions. Furthermore, the HST is 
performing well, and is a robust observatory in no immediate need of 
servicing. Should a delay in the planned servicing mission occur that 
impacts the Telescope's ability to perform its science mission, HST can 
be placed in safe mode until a servicing mission can be arranged.

                    ANTICIPATING A RETURN TO FLIGHT

    We have begun prudent and preliminary planning efforts to prepare 
for ``return to flight'' in order to be ready to implement the findings 
of the Columbia Accident Investigation Board. NASA's ``Return to 
Flight'' analysis will look across the entire Space Shuttle Program and 
evaluate possible improvements for safety and flight operations that we 
were considering prior to the Columbia accident. I have selected Dr. 
Michael A. Greenfield, Associate Deputy Administrator for Technical 
Programs, to lead our Return to Flight team along with William Readdy, 
Associate Administrator for Space Flight. This team will be composed of 
a number of key officials and safety professionals from within the 
space flight community. Their experience in shuttle operations and the 
investigation to date will provide a sound foundation for this critical 
activity.

                    FISCAL YEAR 2004 BUDGET REQUEST

    On that sunny Saturday morning, February 1st, as I awaited the 
landing of the Columbia, I was contemplating my return to Washington, 
D.C., to prepare for the release of NASA's fiscal year 2004 budget. We 
had worked aggressively over the past year to develop a new Strategic 
Plan and fashion a budget to make it a reality. I was excited about 
announcing these plans with the release of the President's fiscal year 
2004 Budget in two days. I had no idea how that tragic morning would 
change my focus over these ensuing weeks. During the days that 
followed, I was asked whether the Columbia accident would force us to 
toss aside our budget and long-range plans. Mr. Chairman, I will tell 
you as I told them, I think not. A test of any long-term plan is 
whether it can accept the inevitable setbacks and still achieve its 
goals. That is my hope for our plan.
    Mr. Chairman, in light of the recent tragic loss of Columbia, we 
must recognize that all exploration entails risks. In this, the 
Centennial Year of Flight, I am reminded of an accident that occurred 
just across the river at Ft. Myer in 1908 onboard the Wright flyer. The 
Wright brothers were demonstrating their flying machine to the U.S. 
Army, and a young lieutenant was riding as an observer. The flyer 
crashed, and Lt. Thomas Selfridge died of head injuries, thus becoming 
the first fatality of powered flight. From that accident in 1908 came 
the use of the crash helmet. So too from Columbia we will learn and 
make human space flight safer.
    Although the budget proposal was prepared prior to the loss of 
Columbia and its crew, I am convinced that NASA's fiscal year 2004 
budget proposal is responsible, credible, and compelling. It is 
responsible by making sure that our highest priorities are funded; it 
is credible by ensuring that adequate budget is built into the most 
technically challenging programs, and that we will fully account for 
the costs of all our programs; and, it is compelling by allowing NASA 
to pursue exciting new initiatives that are aligned with our strategic 
objectives. As I mentioned previously, the President's fiscal year 2004 
budget request for NASA is $15.47 billion. While I will not rule out 
potential adjustments to this proposal that may be appropriate upon 
completion of the independent Gehman Board investigation, I look 
forward to discussing the fiscal year 2004 budget request and how it 
advances our mission goals of understanding and protecting the home 
planet, exploring the Universe and searching for life, and inspiring 
the next generation of explorers, and, in so doing, honoring the legacy 
of the Columbia astronauts.

                       ESTABLISHING OUR BLUEPRINT

    Today's discussion is about more than changes in the budget--which 
is usually just a discussion over how one might change a few percent of 
one's budget from the year to year--but instead it is about a new 
strategic direction for NASA and how we are planning to shift our 
resources toward our longer-term goals. In April 2002, I gave a speech 
at the Syracuse University that espoused a new Vision and Mission for 
NASA. There are only 13 words in NASA's Vision and 26 words in NASA's 
Mission, but every word is the product of extensive senior leadership 
debate within NASA. And what you see in our new Strategic Plan is the 
product of those discussions, and the product that the entire NASA team 
is committed to delivering for the American people. Indeed, we did not 
need to release this Strategic Plan with our budget--after all, the law 
stipulates September 2003--but we felt that if we are serious about our 
Vision and Mission, we must have it during our budget deliberations and 
release it simultaneous with our budget.
    NASA's strategy for the future represents a new paradigm. In the 
past, we achieved the marvel of the moon landing, an incredible 
achievement that has shaped much of NASA today, driven by a great 
external event--the Cold War--that allowed our Nation's treasury to be 
aggressively spent on such a goal. Today, and in the decades since 
Apollo, NASA has had no comparable great external imperative. This, 
however, does not mean that we cannot lift our eyes toward lofty goals 
and move up the ladder--using the stepping stones we have identified. 
We believe that we can make great strides in our exploration goals--not 
on some fixed timescale and fixed location--but throughout our solar 
system with ever more capable robotic spacecraft and humans to enable 
scientific discovery. Hence, we will not be driven by timeline, but by 
science, exploration, and discovery. We will pursue building blocks 
that provide the transformational technologies and capabilities that 
will open new pathways. We can do this within our means. And if someday 
there is an imperative or new discovery that pushes us further, we will 
be ready and well along the way.
    To be successful, we will transform ourselves as follows:
  --All investments will contribute to our goals and traceable to the 
        Vision and Mission. Every NASA program and project must be 
        relevant to one or more of the goals, and perform successfully 
        against measures.
  --Human space flight capabilities will be enhanced to enable research 
        and discovery. We will continue to expand human presence in 
        space--not as an end in itself, but as a means to further the 
        goals of exploration, research, and discovery.
  --Technology developments will be crosscutting. We will emphasize 
        technologies with broad applications, such as propulsion, 
        power, computation, communications, and information 
        technologies.
  --Education and inspiration will be an integral part of all our 
        programs. We will track performance of our education programs 
        like that of any other NASA activity.
  --We will operate as One NASA in pursuit of our Vision and Mission. 
        We will reinforce the shared commitment of all NASA employees 
        to our common goals.
  --As Only NASA Can: We will pursue activities unique to our Mission--
        if NASA does not do them, they will not get done--if others are 
        doing them, we should question why NASA is involved.

                      STRENGTHENING OUR FOUNDATION

    This building block and stepping stone approach already has one 
important brick in place: the fiscal year 2003 Omnibus Appropriations 
Act, signed by the President on February 20. The fiscal year 2003 
appropriation contains many of the needed elements that will help NASA 
address important constraints in power, transportation, and human 
capabilities. The fiscal year 2003 budget contains funding for NASA's:
  --Nuclear Systems Initiative to develop new power and propulsion 
        technologies that will enable solar system exploration missions 
        that are inconceivable with current conventional chemical 
        propulsion systems. This initiative has been incorporated in 
        Project Prometheus as part of our fiscal year 2004 Budget 
        request.
  --International Space Station (ISS), including full funding to assure 
        we can successfully reach the milestone of U.S. Core Complete--
        which will enable accommodation of International Partner 
        elements--maintain progress on long-lead items for enhanced 
        research, and continue to build out this research laboratory 
        platform for overcoming human limitations in space. It also 
        includes authority to proceed with establishment of a Non-
        Governmental Organization (NGO) for ISS research. This funding 
        and authority builds on our major achievements over the past 
        year. We have received endorsements by two independent cost 
        teams that deemed the program's cost estimates as ``credible'' 
        and the ISS Management and Cost Evaluation (IMCE) independent 
        task force, chaired by Tom Young, that commended our progress 
        against their recommended management reforms. We have revamped 
        our science program towards the highest priority research as 
        identified by the Research Maximization and Prioritization 
        (ReMAP) independent task force. We have put in place a new 
        management team to control program content, ensure science 
        requirements are met, and refocus program from development to 
        operations. Finally, we are implementing new financial 
        management tools to better manage our resources.
  --Integrated Space Transportation Plan (ISTP) that will address our 
        Nation's near and mid-term requirements in human space flight 
        by making investments to extend the Shuttle's operational life 
        for continued safe operations; developing a new Orbital Space 
        Plane to provide a crew transfer capability as early as 
        possible to assure access to and from the International Space 
        Station; and, funding next-generation launch vehicle technology 
        in such areas as propulsion, structures, and operations. Since 
        providing our ISTP as part of the fiscal year 2003 budget 
        amendment in November 2002, we have moved out aggressively on 
        this roadmap. We are refining the Shuttle's Service Life 
        Extension Program to better identify priorities and long-term 
        investments. We also have completed top-level requirements for 
        the Orbital Space Plane Program and awarded contracts to 
        address priority technologies and areas of risk. Finally, we 
        are refining our investments in long-term launch technologies 
        as part of our recently initiated space architecture 
        activities. We believe the ISTP is a good plan, but we are 
        committed to re-examining it if necessary in light of future 
        investigation findings on Columbia.
    We must ensure that we have a sound foundation--our people, 
processes, and tools--from which to build our programs. It is only from 
such a sound foundation that we can go forward to more ambitious plans. 
We have placed the highest priority on achieving the goals of the 
President's Management Agenda, which contain five Government-wide 
initiatives that promise to significantly improve our management 
foundation:
  --Human Capital.--We have begun to implement our strategic human 
        capital plan, including a tracking system to identify workforce 
        deficiencies across the Agency. I will address this very 
        important issue at the conclusion of my remarks.
  --Competitive Sourcing.--We have achieved the government-wide, 15 
        percent competitive sourcing goal, and are pursuing, wherever 
        feasible, new opportunities for competition, including the 
        renewal of contracts.
  --Financial Performance.--We have addressed all issues contained in 
        the disclaimer opinion on NASA's 2001 audit and been given a 
        clean opinion for 2002.
  --E-Government.--We are addressing information technology security 
        issues and reviewing and enhancing other IT capabilities.
  --Budget & Performance Integration.--We are budgeting for the full 
        cost of NASA's programs and have integrated our budget and 
        performance plan starting with fiscal year 2004 Budget.
    Mr. Chairman, I would like to specifically highlight NASA's newest 
Enterprise, Education. The Education Enterprise was established in 
2002, to inspire more students to pursue the study of science, 
technology, engineering and mathematics, and ultimately to choose 
careers in those disciplines or other aeronautics and space-related 
fields. The new Enterprise will unify the educational programs in 
NASA's other five enterprises and at NASA's 10 field Centers under a 
One NASA Education vision. NASA's Education vision will permeate and be 
embedded within all the Agency's activities.

                 LINKING INVESTMENTS TO STRATEGIC PLAN

    Simultaneously with the submission of the President's fiscal year 
2004 budget request, we submitted to the Congress the Agency's new 
Strategic Plan, our Integrated Budget and Performance Document, and our 
Performance and Accountability Report. I believe the sweeping changes 
we are proposing in our fiscal year 2004 Budget represent the most 
ambitious in our history and will enable us to vastly improve our 
ability to align our investments with our goals, assess progress, and 
make sound economic and technical decisions based on accurate and 
timely information. These improvements include:
  --Budget Restructure.--In response to our new Strategic Plan, we have 
        restructured our budget. NASA's new Strategic Plan recognizes 
        that we are organized by those Mission-driven activities that 
        deliver our end products--Space Science, Earth Science, 
        Biological and Physical Research, Aeronautics, and Education--
        and by those activities--International Space Station, Space 
        Shuttle, Space Flight Support, and Crosscutting Technology--
        that enable our Mission-driven activities to succeed. To mirror 
        the organization of activities in our Strategic Plan into 
        mission-driven efforts and supporting capabilities, and to 
        recognize the reality that there is no arbitrary separation 
        between human and science activities, the fiscal year 2004 
        budget replaces the previous structure with two new 
        appropriation accounts: Science, Aeronautics and Exploration; 
        and, Space Flight Capabilities. For fiscal year 2004, the 
        request includes $7.661 billion for Science, Aeronautics and 
        Exploration and $7.782 billion for Space Flight Capabilities.
          Furthermore, the budget is structured in 18 goal-oriented 
        Themes, which aggregate programs to be managed as a business 
        portfolio in pursuit of common goals and performance measures.
  --Full Cost Accounting and Management.--In a landmark event, we have 
        allocated all our costs by program areas. Throughout our 
        history, NASA has treated the cost of institutional activities 
        (personnel, facilities, and support) separate from the programs 
        they benefit. This has made economic trades difficult to 
        analyze. In this budget, we have placed all costs against 
        programs so that, for the first time, we can readily determine 
        the true total costs of programs and allow managers to make 
        more efficient and effective choices.
  --Integrated Budget and Performance Document.--We have revamped our 
        Congressional justification with a new document that merges our 
        restructured budget with our performance plan. The document 
        highlights the 18 themes and associated performance measures. 
        Moreover, it clearly identifies projects approved for full 
        scale development, including promised cost, schedule, and 
        technical parameters.
  --Integrated Financial Management System.--After a decade of trying, 
        we are successfully bringing online a new integrated financial 
        management system. For the first time in the agency's history, 
        we will have one financial system for all our Field Centers, a 
        major step in our One NASA goal. The core financial module will 
        replace the legacy systems at all our Centers by this summer. 
        This new system implementation is critical for enabling 
        successful management of the budget, cost, performance, and the 
        accounting changes mentioned above. Moreover, this new system 
        will significantly enhance our ability to maintain a clean 
        financial audit opinion.

                  PURSUING CRITICAL NEW OPPORTUNITIES

    At NASA, we are developing building blocks that open new pathways 
of exploration and discovery. Today, our telescopes peer billions of 
years into the past to witness the beauty and unlock the mysteries of 
the early universe. Our satellites view the entire planet from space, 
allowing us to study global change and its consequences for life on 
Earth. Our spacecraft travel throughout the solar system and into the 
uncharted territories beyond, exploring the processes that have led to 
the incredible diversity of the planets and the emergence of life. Our 
aeronautics research has given people the routine ability to travel 
safely and reliably all around the world. Our astronauts are living and 
working in space, and from them, we are learning how to expand our 
sphere of exploration far beyond the bounds of Earth.
    But, our ability to fully achieve our Mission is constrained by the 
need for new technologies that can overcome our current limitations. We 
must provide ample power for our spacecraft as well as reliable and 
affordable transportation into space and throughout the solar system. 
We must deploy innovative sensors to probe Earth, other planets, and 
other solar systems. We must be able to communicate large volumes of 
data across vast distances, so that we can get the most from our 
robotic explorers. And we must learn to mitigate the physiological and 
psychological limitations of humans to withstand the harsh environment 
of space.
    To address these and other challenges, we must build upon the 
strategic investments we are making in the fiscal year 2003 Budget and 
pursue critical new opportunities. Consequently, our fiscal year 2004 
Budget request includes nine new initiatives:
  --Project Prometheus will use breakthrough nuclear propulsion and 
        power systems to fuel an ambitious mission to Jupiter's icy 
        moons, which astrobiologists believe could harbor organic 
        material, and lay the groundwork for even more ambitious 
        exploration missions in the coming decades. The fiscal year 
        2004 budget request includes $93 million for this initiative, 
        and $2.07 billion over five years.
  --Human Research Initiative will conduct biomedical research and 
        develop technologies to enable safe and efficient long-duration 
        space missions, including potential future missions beyond low-
        Earth orbit. This initiative will provide knowledge and 
        technology for efficient life support on the ISS, and has 
        potential medical benefits for millions here on Earth. The 
        fiscal year 2004 budget request includes $39 million for this 
        initiative, and $347 million over five years.
  --Optical Communications Initiative will invest in revolutionary 
        laser communications technologies that will allow planetary 
        spacecraft to transmit large volumes of scientific information, 
        and will be demonstrated on a Mars mission in 2009. The fiscal 
        year 2004 budget request includes $31 million for this 
        initiative, and $233 million over five years.
  --Beyond Einstein Initiative will launch two Einstein Observatories: 
        LISA (Laser Interferometer Space Antenna), a deep-space-based 
        gravity wave detector that will open our eyes to the as-yet-
        unseen cosmic gravitational radiations; and Constellation-X, a 
        mission that will tell us what happens to matter at the edge of 
        a black hole. In addition, the fiscal year 2004 budget request 
        provides funding to initiate Einstein Probes, three spacecraft 
        that will answer: ``What powered the Big Bang?'' (the Inflation 
        Probe); ``How did black holes form and grow?'' (the Black Hole 
        Finder Probe); and, ``What is the mysterious energy pulling the 
        Universe apart?'' (the Dark Energy Probe). The fiscal year 2004 
        budget request includes $59 million for this initiative, and 
        $765 million over five years.
  --Climate Change Research Initiative is an interagency effort to 
        accelerate research targeted at reducing key scientific 
        uncertainties to help the Nation chart the best course forward 
        on climate change issues. The fiscal year 2004 budget request 
        includes $26 million for this initiative, and $72 million over 
        five years.
  --Aviation Security Initiative will develop technologies to help 
        reduce the vulnerability of aviation to terrorist and criminal 
        attacks. The fiscal year 2004 budget request includes $21 
        million for this initiative, and $225 million over five years.
  --National Airspace System Transformation Augmentation will 
        accelerate the development of technology to help address 
        efficiency, capacity and security needs. The fiscal year 2004 
        budget request includes $27 million for this initiative, and 
        $100 million over five years.
  --Quiet Aircraft Technology Acceleration will develop technology to 
        help significantly reduce community noise impact and achieve 
        significant savings in amelioration programs. The fiscal year 
        2004 budget request includes $15 million for this initiative, 
        and $100 million over five years.
  --Education Initiative includes funding for NASA's Educator Astronaut 
        Program (EAP), NASA Explorer Schools, NASA Explorer Institutes, 
        and Scholarship for Service. As NASA's EAP approaches the April 
        30, application deadline, NASA has received more than 1245 EAP 
        applications. The fiscal year 2004 budget request includes $26 
        million for this initiative, and $130 million over five years.
    While there has been additional funding provided to NASA's previous 
five-year budget runout to provide for these new initiatives, the 
balance of the funds for the initiatives has resulted from 
reprioritization of future funding to more appropriately pursue the 
Agency's Vision/Mission and goals. These initiatives will plant the 
seeds to enable future achievements. From them, we will continually 
advance the boundaries of exploration and our knowledge of our home 
planet and our place in the universe. We seek answers along many paths, 
multiplying the possibilities for major discoveries. The capabilities 
we develop may eventually enable humans to construct and service 
science platforms at waypoints in space between Earth and the Sun. 
Someday, we may use those same waypoints to begin our own journeys into 
the solar system to search for evidence of life on Mars and beyond.
    Mr. Chairman, as I indicated above, there is one additional point 
that I wish to make. I would like to briefly discuss the state of our 
workforce, the lifeblood of this Agency. Last year, NASA submitted to 
the Congress a series of legislative proposals to help the Agency 
reconstitute and reconfigure our workforce. These provisions, for the 
most part, mirrored tools contained in the President's proposed 
Managerial Flexibility Act, and three of them have since been enacted 
on a Government-wide basis in the Homeland Security Act. NASA's 
workforce is an aging workforce. At the time of Apollo 17, the average 
age of the young men and women in Mission Control was 26 years; today, 
we have three times as many personnel over 60 years of age as under 30 
years of age. Within five years, nearly 25 percent of NASA's current 
workforce will be eligible to retire. Since 1999, there have been at 
least 18 studies and reports concerning the workforce challenges facing 
NASA. The potential loss of this intellectual capital is particularly 
significant for this cutting-edge Agency that has skills imbalances.
    Chairman Boehlert introduced H.R. 1085, the NASA Flexibility Act, 
which provides many of the human capital provisions that we feel are 
critical in our ability to reconstitute and reconfigure the NASA 
workforce. We support those provisions that are identical to the NASA 
human capital legislation submitted by the Administration in the last 
Congress; I am hopeful that these provisions will be enacted 
expeditiously this year, and ask for the Subcommittee's support of 
these important proposals.
    In addition, the Senate Subcommittee on Oversight of Government, 
Management, Restructuring and the District of Columbia of the Committee 
on Government Affairs held a hearing on March 6 on NASA's workforce 
challenges, and the Committee is moving forward with S. 610, which is 
critical to NASA's ability to reconstitute and reconfigure our 
workforce. We support those provisions that are identical to the NASA 
human capital legislation submitted by the Administration in the last 
Congress; I am hopeful that these provisions will be enacted 
expeditiously this year, and ask for the Subcommittee's support for 
these important proposals.
    Mr. Chairman, appended to my testimony, as Enclosure 1, is a chart 
displaying NASA's fiscal year 2004 five-year budget request. Also 
appended, as Enclosure 2, is a summary of the significant progress that 
NASA has made in the past year on a number of important research and 
exploration objectives, and a detailed summary of NASA's fiscal year 
2004 budget request.
    The Columbia accident has reminded me that we cannot stop dreaming. 
We cannot stop pursuing our ambitious goals. We cannot disappoint 
future generations when we stand at the threshold of great advances. 
Mr. Chairman, I believe that NASA's fiscal year 2004 budget request is 
well conceived and worthy of the favorable consideration by the 
Subcommittee. I am prepared to respond to your questions.

                         ENCLOSURE 1.--NATIONAL AERONAUTICS AND SPACE ADMINISTRATION PRESIDENT'S FISCAL YEAR 2004 BUDGET REQUEST
                                                         (Budget authority, dollars in millions)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                     Full Cost
                                               Business ------------------------------------------------------------------
                                               as Usual     Est.
  By Appropriation Account/By Enterprise/By     Pres.      Pres.                                                                   Chapter Number
                    Theme                        Bud.       Bud.      Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                Fiscal     Fiscal   Year 2004  Year 2005  Year 2006  Year 2007  Year 2008
                                              Year 2003  Year 2003
--------------------------------------------------------------------------------------------------------------------------------------------------------
Science, Aeronautics & Exploration..........      7,015      7,101      7,661      8,269      8,746      9,201      9,527  SAE SUM 1
    Space Science...........................      3,414      3,468      4,007      4,601      4,952      5,279      5,573  SAE 1
        Solar System Exploration............        976      1,046      1,359      1,648      1,843      1,952      2,054  SAE 2
        Mars Exploration....................        496        551        570        607        550        662        685  SAE 3
        Astronomical Search for Origins.....        698        799        877        968      1,020      1,022      1,061  SAE 4
        Structure & Evolution of the Univ...        331        398        432        418        428        475        557  SAE 5
        Sun-Earth Connections...............        544        674        770        959      1,111      1,169      1,216  SAE 6
        Institutional.......................        370  .........  .........  .........  .........  .........  .........

    Earth Science...........................      1,628      1,610      1,552      1,525      1,598      1,700      1,725  SAE 7
        Earth System Science................      1,249      1,529      1,477      1,440      1,511      1,606      1,629  SAE 8
        Earth Science Applications..........         62         81         75         85         87         94         96  SAE 9
        Institutional.......................        318  .........  .........  .........  .........  .........  .........

    Biological & Physical Research..........        842        913        973      1,042      1,087      1,118      1,143  SAE 10
        Biological Sciences Research........        245        304        359        399        453        456        481  SAE 11
        Physical Sciences Research..........        247        351        353        392        380        409        401  SAE 12
        Commercial Research & Support.......        170        254        261        251        254        253        262  SAE 13
        Institutional + AM + SAGE...........        181          3  .........  .........  .........  .........  .........

    Aeronautics \1\.........................        986        949        959        932        939        934        916  SAE 14
        Aeronautics Technology..............        541        949        959        932        939        934        916  SAE 15
        Institutional.......................        445  .........  .........  .........  .........  .........  .........

    Education...............................        144        160        170        169        169        170        170  SAE 16
        Education...........................        144        160        170        169        169        170        170  SAE 17

Space Flight Capabilities...................      7,960      7,875      7,782      7,746      7,881      8,066      8,247  SFC SUM 1
    Space Flight............................      6,131      6,107      6,110      6,027      6,053      6,198      6,401  SFC 1
        Space Station.......................      1,492      1,851      1,707      1,587      1,586      1,606      1,603  SFC 2
        Space Shuttle.......................      3,208      3,786      3,968      4,020      4,065      4,186      4,369  SFC 3
        Space Flight Support................        239        471        434        419        402        407        429  SFC 4
        Institutional.......................      1,192  .........  .........  .........  .........  .........  .........

    Crosscutting Technologies \1\...........      1,829      1,768      1,673      1,720      1,828      1,868      1,846  SFC 5
        Space Launch Initiative.............        879      1,150      1,065      1,124      1,221      1,257      1,224  SFC 6
        Mission & Sci. Measurement Tech.....        275        434        438        435        439        439        444  SFC 7
        Innovative Tech Trans. Partnerships.        147        183        169        161        168        172        179  SFC 8
        Institutional.......................        528  .........  .........  .........  .........  .........  .........

    Inspector General.......................         25         25         26         28         29         30         31  IG

                                             -----------------------------------------------------------------------------------------------------------
            TOTAL...........................     15,000     15,000     15,469     16,043     16,656     17,297     17,806
Year to Year Increase (in percent)..........  .........  .........        3.1        3.7        3.8        3.8        2.9
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Aerospace Technology Enterprise includes both Aeronautics and Crosscutting Technologies.

NOTE: May not add due to rounding.

                                 ______
                                 
                              Enclosure 2
 Summary--NASA Accomplishments During 2002 and Fiscal Year 2004 Budget 
                                Request
    NASA has made significant progress during 2002 on a number of 
important research and exploration objectives. During the past year, 
NASA:
  --Captured a dramatic new portrait of the infant universe in sharp 
        focus. NASA's Wilkinson Microwave Anistropy Probe revealed the 
        first generation of stars that began shining only 200 million 
        years after the big bang and forecasted the age of the universe 
        at 13.7 billion years old. Most striking though was the probe's 
        discovery that the universe will probably expand forever.
  --Upgraded the Hubble Space Telescope on Columbia's mission (STS-109) 
        in March 2002. Columbia's astronauts installed new solar 
        panels, a better central power unit and a new camera that 
        increased Hubble's ``vision'' tenfold, and revived a disabled 
        infrared camera using an experimental cooling system.
  --Celebrated Riccardo Giacconi's 2002 Nobel Prize in Physics for his 
        pioneering NASA sponsored work in the field of X-Ray astronomy. 
        This work has led to important discoveries about the nature of 
        black holes, the formation of galaxies, and the life cycles of 
        stars.
  --Demonstrated a prototype device that automatically and continuously 
        monitors the air for the presence of bacterial spores that may 
        be used to detect biohazards, such as anthrax.
  --Made progress on the development of a radar system for aircraft 
        that detects atmospheric turbulence, thus improving prospects 
        for commercial airliners to avoid the kind of bumpy weather 
        most airline passengers find uncomfortable.
  --Advanced technology to reduce airliner fuel tank fires or 
        explosions, in our effort to make air travel safer and more 
        secure.
  --Began tests on a technology effort to develop lighter-weight 
        flexible-wing aircraft.
  --Measured through the Mars Odyssey spacecraft enough water ice 
        buried deep under the poles of the red planet, that if thawed, 
        could fill Lake Michigan twice over.
  --Discovered for the first time, a planetary system, circling the 
        nearby star 55 Cancri, with a Jupiter-sized planet at about the 
        same distance for its parent star as our own Jupiter is from 
        our sun. This discovery enhances the possibility that Earth-
        like planets could exist in such systems throughout the galaxy.
  --Conducted Earth Science research that may one day allow public 
        health officials to better track and predict the spread of West 
        Nile Virus or similar diseases.
  --Worked to develop cutting-edge technologies that will increase our 
        weather forecasting capability from the current three-to-five-
        day accuracy level up to a seven-to-ten-day level within this 
        decade.
  --Observed the disintegration of the Antarctic Larsen Ice Shelf and 
        the seasonal acceleration of the Greenland ice sheet.
  --Encouraged thousands of students to learn more about space 
        exploration through a nationwide contest to ``Name the Rovers'' 
        that will launch toward Mars this year.
  --Published, ``Touch the Universe: A NASA Braille Book of 
        Astronomy,'' a book that for the first time presents for 
        visually impaired readers color images of planets, nebulae, 
        stars, and galaxies. Each image is embossed with lines, bumps, 
        and other textures. The raised patterns translate colors, 
        shapes, and other intricate details of the cosmic objects, 
        allowing visually impaired people to feel what they cannot see.
  --Celebrated a second year of continuous human habitation on the 
        International Space Station, the largest and most sophisticated 
        spacecraft ever built, and continued assembly with four Space 
        Shuttle missions.
  --Reflecting the Agency's increased ISS research tempo, conducted 
        approximately 48 research and technology development 
        experiments aboard Station, including the first materials 
        science research aboard Station, testing medical procedures for 
        controlling the negative effects of space flight and increasing 
        understanding of changes to bone and the central nervous system 
        that occur in space. Astronauts conducted advanced cell 
        culturing research, broke new ground in the study of dynamic 
        systems, made up of tiny particles mixed in a liquid 
        (colloids), and installed three new Station experiment 
        equipment racks.

                     FISCAL YEAR 2004 BUDGET DETAIL

Space Science Enterprise
    The Space Science Enterprise seeks to answer fundamental questions 
about life in the universe, including how it arose, its mechanisms, 
where in the solar system it may have originated or exist today, and 
whether there are similar planetary environments around other stars 
where the signature of life can be found. The Enterprise also seeks to 
understand how the universe began and evolved, how stars and galaxies 
formed, and how matter and energy are entwined on the grandest scale. 
The proposed fiscal year 2004 budget for the Space Science is $4.007 
billion. The five theme areas in the Space Science Enterprise are:

            Solar System Exploration
    We are blessed to live in a fascinating neighborhood, one that we 
are getting to know better every day. This theme seeks to understand 
how our own Solar System formed and evolved and to determine if life 
exists beyond Earth.
    The Administration's fiscal year 2004 budget request is $1,359 
million. The budget request will support: the launch of the Deep Impact 
mission to probe below the surface of comet Temple-1 in January 2004; 
the Stardust spacecraft's January 2004 encounter with the comet Wild-2, 
and Stardust's return to Earth with dust samples from the comet in 
2006; the March 2004 launch of the MESSENGER mission to explore 
Mercury, our least explored terrestrial planet; the arrival at Saturn 
of the Cassini spacecraft in July 2004, following a seven-year journey; 
and the return to Earth in September 2004 of the Genesis spacecraft 
with its samples of the solar wind following its two-year ``sunbath''. 
The budget also contains funding for the New Frontiers program to 
explore the outer planets in the Solar System and for Astrobiology 
research to improve our ability to find and identify potential life 
harboring planets.
    We are very excited about two new Solar System Exploration 
initiatives that the budget will support. Building on the work of our 
Nuclear Systems Initiative, Project Prometheus is a new start to 
develop breakthrough power and propulsion technology that will lead to 
nuclear-powered spacecraft that will search early in the next decade 
for evidence of global subsurface oceans and possible organic material 
on Jupiter's three icy Galilean moons: Europa, Ganymede, and Callisto. 
Such advances in nuclear power and propulsion have set the stage for 
the next phase of outer solar system exploration.
    Following in the same progress that led from Pony Express to 
Telegraph to Telephone, our Optical Communications initiative will use 
laser light instead of radio waves to revolutionize the way our 
spacecraft gather and report back information as they continue to scout 
the Solar System. Today, using conventional radio frequency 
communications, the Mars Reconnaissance Orbiter will take 21 months to 
map 20 percent of the red planet's surface. By contrast, optical 
communications would allow the entire surface to be mapped in four 
months. The budget will support a demonstration of the technology in 
2009 using a Mars orbiting satellite that will relay data to high-
altitude Earth balloons. If successful, this technology promises to 
achieve dramatic reductions in the cost per byte of data returned and 
could ultimately replace the Deep Space Network.

            Mars Exploration
    The Mars Odyssey spacecraft's discovery of large quantities of 
water frozen beneath the Mars' polar areas provides additional 
tantalizing evidence that our neighboring planet had a wet and warmer 
past. This water and hints of relatively recent liquid water flows make 
Mars the most likely place to seek evidence of ancient or present 
extraterrestrial life. Mars is also worth studying because much can be 
learned comparatively between the current and past geology, 
atmospheres, and magnetic fields of Earth with Mars. We also hope to 
advance our understanding of Mars because some day in the not so 
distant future, human explorers may take humanity's next giant leap to 
the Red Planet.
    The proposed Mars exploration budget is $570 million. This request 
will support our goal of 90 days of surface operations of the twin Mars 
Exploration Rovers, set to begin in January and February of 2004 at 
sites where ancient water once flowed.
    The budget also supports the continued development of: the Mars 
Reconnaissance Orbiter, a spacecraft that will map Martian surface 
features as small as a basketball in 2005; the Mars Science Laboratory, 
a rover that will traverse tens of kilometers over Mars in 2009 and 
last over a year, digging and drilling for unique samples to study in 
its onboard laboratory; and the telecommunications satellite that will 
demonstrate our laser light optical communications technology in 2009.

            Astronomical Search for Origins
    The astounding portrait of the infant universe captured by NASA's 
Wilkinson Microwave Anistropy Probe provides one more demonstration of 
the human capacity to probe more deeply into the mysteries of creation. 
This theme strives to answer two profound questions: Where did we come 
from? Are we alone? It does so by observing the birth of the earliest 
galaxies and the formation of stars, by finding planetary systems in 
our galactic neighborhood, including those capable of harboring life, 
and by learning whether life exists beyond our Solar System. One year 
may seem inconsequential in a Universe that is 13.7 billion years old, 
but as we learned during the last year, a great deal of knowledge and 
understanding can be obtained in the period it takes the Earth to orbit 
the Sun.
    The Administration's proposed fiscal year 2004 budget request for 
the Astronomical Search for Origins is $877 million. The budget will 
provide funding for: continued operations of the Hubble Space 
Telescope; the development of the next-generation James Webb Space 
Telescope and the Space Interferometry Mission, a device scheduled for 
launch in 2009 that will increase our ability to detect planets around 
nearby stars; and initial science operations of the Space Infrared 
Telescope Facility, the final mission of NASA's Great Observatory 
Program. The budget was also designed to support the final Space 
Shuttle servicing mission to the Hubble Space Telescope, a mission that 
is now on hold pending the report of the Columbia Accident 
Investigation Board.

            Structure and Evolution of the Universe
    This theme seeks to understand the nature and phenomena of the 
Universe. It seeks to understand the fundamental laws of space, time 
and energy and to trace the cycles that have created the conditions for 
our own existence. This is accomplished in part by observing signals 
from the Big Bang, mapping the extreme distortions of space-time about 
black holes, investigating galaxies, and understanding the most 
energetic events in the universe. The theme also attempts to understand 
the mysterious dark energy that pervades the Universe and determines 
its ultimate destiny.
    The proposed budget for this theme is $432 million, which will 
support development of the Gamma-ray Large Area Space Telescope, a 
mission to study high-energy objects like black holes.
    The budget will also support a new initiative that will honor the 
continuing legacy of Albert Einstein, some 99 years after Einstein 
developed his theory of Special Relativity. The Beyond Einstein 
initiative will attempt to answer three questions left unanswered by 
Einstein's theories: What powered the Big Bang? What happens to space, 
time, and matter at the edge of a black hole? What is the mysterious 
dark energy expanding the Universe? Under the initiative, a Laser 
Interferometer Space Antenna will use three spacecraft ``formation 
flying'' five million kilometers apart in a triangle to observe the 
distortion of space due to gravity waves. Also, Constellation-X, an X-
ray telescope 100 times more powerful than all existing X-ray 
telescopes, will use a team of powerful X-ray telescopes working in 
unison to observe black holes, investigate ``recycled'' stellar 
material, and search for the ``missing matter'' in the universe. 
Finally, the initiative will support Einstein Probes, a program that 
will begin later this decade, consisting of fully and openly competed 
missions (in the manner of the Discovery, Explorers, and New Frontiers 
programs) to conduct investigations that benefit science objectives 
within the theme.

            Sun-Earth Connections
    We should never take our life-sustaining Sun for granted. NASA's 
Sun-Earth Connections theme investigates our Sun and how its structure 
and behavior affect Earth. NASA seeks to understand how the variability 
of solar radiation affects Earth's climate, and how we can better 
predict solar flares that affect the upper atmosphere and can damage 
satellites and disable the power distribution grid on the ground. NASA 
also uses the Sun as an ideal laboratory for researching basic physics 
and learning how other stars function.
    The proposed budget for NASA's Sun-Earth Connections theme is $770 
million. The budget will support the development of the STEREO, the 
Solar Dynamics Observatory and future flight missions. Scheduled for a 
2005 launch, STEREO will use two identically equipped spacecraft to 
provide revolutionary 3-D imaging of coronal mass ejections. The Solar 
Dynamics Observatory, which will study the Sun's magnetic field and the 
dynamic processes that influence space weather, will enter 
implementation of development in January 2004.

Earth Science Enterprise
    In the near-half century that we have lived in the ``space age'' 
the most interesting planet that NASA spacecraft have explored is our 
own home in the universe. Spacecraft observations combined with 
atmospheric, ground-based and oceanic measurements have enabled a 
systematic study of Earth processes, leading to important scientific 
advances and tangible benefits to the American public. NASA's vision of 
``improving life here'' starts with the Earth Science Enterprise's 
study of planet Earth from space. The Enterprise seeks to understand 
and protect our home planet by advancing Earth system science and 
applying the results to improve prediction of climate, weather, and 
natural hazards. The proposed fiscal year 2004 budget for Earth Science 
is $1,552 million. The two theme areas for Earth Science are:

            Earth System Science
    Within this theme, NASA is deploying and operating the first 
comprehensive constellation of Earth-observing research satellites 
designed to reveal interactions among Earth's continents, atmosphere, 
oceans, ice, and life. These interactions produce the conditions that 
sustain life on Earth. Data and information from NASA satellites enable 
researchers to understand the causes and consequences of global change 
and inform the decisions made by governments, businesses, and citizens 
to improve our quality of life.
    The $1.477 million fiscal year 2004 budget request for Earth System 
Science will support the launches in 2004 of three complementary 
formation-flying polar orbiting satellites, which in effect will become 
a super-satellite. They are: AURA, which will study Earth's ozone, air 
quality and climate; Cloudsat, which will measure the structure of 
clouds to better quantify their key role in the Earth's water cycle and 
climate system; and CALIPSO, the NASA-French project to determine how 
the climate, aerosols and clouds interact. Calipso, coupled with Aura 
and an advanced polarimeter slated for launch in 2007 under an 
initiative to accelerate evaluation of non-carbon dioxide 
(CO<INF>2</INF>) impacts on climate change as part of the 
Administration's Global Climate Change Research Initiative, will help 
determine the role of aerosols in climate, reducing one of the largest 
uncertainties in climate models.
    Significantly, the Earth System Science budget will also provide 
$524 million, in conjunction with the administration's Global Climate 
Change Research Initiative, for research and modeling that will help 
answer critical scientific questions on climate change to aid policy 
and economic decision makers.
    Other major Earth Science work in 2004 that the budget will support 
include: Using satellite observations to provide daily and seasonal 
global atmospheric water vapor, rainfall, snowfall, sea-ice and ice-
sheet maps to improve the scientific understanding and modeling of 
water cycles throughout the Earth system; Improving the predictive 
capabilities of regional weather models through satellite-derived 
localized temperature and moisture profiles; and assimilating satellite 
and in situ observations into a variety of ocean, atmospheric, and ice 
models for the purpose of estimating the state of Earth's seasonal and 
decadal climate.
    The budget will also support the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Preparatory Project 
under development in partnership with the National Oceanic and 
Atmospheric Administration and the Department of Defense. This project, 
slated for launch in 2006, will maintain the continuity of certain 
environmental data sets that were initiated with NASA's Terra and Aqua 
satellites, prior to the launch of the operational NPOESS system in 
2009. Also supported with be the Landsat data continuity mission, an 
innovative program to seek partnerships with industry that use critical 
land remote sensing data.

            Earth Science Applications
    NASA recognizes that by working in partnership with other Federal 
agencies, we can leverage our research results and Earth observation 
information products to provide significant benefits to the American 
public. Within our Earth Science Applications theme we have identified 
applications where we can improve decision support systems, such as 
weather prediction models and near-airport terrain databases operated 
by our partner agencies. For each application, joint research and 
demonstration projects are under way or being developed. We are also 
developing crosscutting solutions that advance the use of NASA 
information and technology across a range of potential new 
applications.
    The $75 million fiscal year 2004 budget request for Earth Science 
Applications will support a focus on 12 specific applications of 
national priority where other agencies' decision support systems can be 
markedly improved based on NASA-provided data and information. In 2004, 
NASA intends to benchmark improvements to air quality and agricultural 
productivity and competitively select projects for the Research, 
Education, Applications Solutions Network (REASON) program to serve 
national priorities.

Biological and Physical Research Enterprise
    On their 16-day mission of exploration and discovery the seven 
Columbia astronauts conducted medical investigations related to cancer, 
osteoporosis and kidney stones, all with the goal of advancing our 
understanding of nature and the world we live in. The research 
operations were smooth and productive, with new phenomena being 
observed in combustion science and in cell science. As Commander Rick 
Husband said, ``I think one of the legacies of NASA is that you always 
push forward. And STS-107 is doing that on the science side--pushing 
human science knowledge forward.''
    Our Biological and Physical Research Enterprise exists to push the 
frontiers of science forward. The Enterprise uses the rich 
opportunities provided by space flight to pursue answers to a broad set 
of scientific questions, including those about the human health risks 
of space flight. The space environment offers a laboratory, unique in 
the history of science, that allows the study of biological and 
physical processes. Experiments that take advantage of this environment 
extend from basic biology to quantum mechanics and from fundamental 
research to research with near-term applications in medicine and 
industry.
    The proposed fiscal year 2004 budget for Biological and Physical 
Research is $973 million. The three theme areas in Biological and 
Physical Research are:

            Biological Sciences Research
    Within this theme, NASA determines ways to support a safe human 
presence in space. We are conducting research to define and control the 
physiological and psychological risks posed to human health by exposure 
in space to radiation, reduced gravity, and isolation. This theme also 
conducts research and development to improve the performance of life 
support systems. It includes a basic biology research component that 
seeks both to pursue fundamental biological research questions from 
cell to tissues to whole organisms which produce results that can 
support advanced methods for enabling the continued human exploration 
of space.
    The proposed $359 million fiscal year 2004 budget for Biological 
Sciences Research will fund expanded ground research into how humans 
can adapt to the hazards of space flight for unprecedented periods of 
time under a new Human Research Initiative. A flight program in high 
priority areas of advanced human support technology to reduce mass to 
orbit and beyond for life support equipment by a factor of three is 
also funded by this Initiative.

            Physical Sciences Research
    This theme supports research that takes advantage of the unique 
environment of Space to expand our understanding of the fundamental 
laws of nature. We also support applied physical science research to 
improve safety and performance for human exploration and research that 
has applications for American industry.
    Activities in this theme are structured to respond to the Research 
Maximization and Prioritization Task Force process, undertaken last 
year to prioritize BPR research activities. The budget request of $353 
million will support major space flight hardware development for 
physical sciences research on the International Space Station, while 
reducing funding for lower priority areas such as biomolecular 
technology, and structural biology future facility class space flight 
hardware, and level II program management support. The budget will 
increase funding for research of strategic importance to NASA's long 
range-goals, including radiation protection and basic research enabling 
knowledge for power and propulsion technologies. The budget also 
contains funding for our new Human Research Initiative, with funds 
targeted for spacecraft system innovations such as less massive fluid 
and thermal control methods and fire safety improvements.
    In 2004, the budget supports the preparation of the first major 
Physical Sciences Research facility rack to the International Space 
Station, and the beginning of prime research facility operations on the 
Space Station.

            Research Partnerships and Flight Support
    The Research Partnership element of this theme establishes policies 
and allocates space resources to encourage and develop research 
partnerships in the pursuit of NASA missions and Enterprise scientific 
objectives. This research supports product development on Earth and 
leverages industry resources to accelerate progress in our strategic 
research areas. Ultimately, Research Partnerships may support 
development of an infrastructure that can be applied to human 
exploration.
    A majority of the proposed $261 million budget in fiscal year 2004 
for Research Partnerships and Flight Support will apply to the Flight 
Support element of this theme. The Flight Support element will be 
augmented by two activities: (1) the transfer of the Alpha Magnetic 
spectrometer program management and budget from Physical Sciences 
Research; and, (2) the consolidation of the Enterprise Support program 
content and budget, previously diffused across various programmatic 
components. The Flight Support activity includes multi-user hardware 
development, payload integration and training, and payload operations 
support.
    The budget also provides for the restructuring of NASA's Space 
Product Development program by aligning industrial partnerships with 
NASA mission needs and Enterprise scientific objectives. We intend to 
review our existing Research Partnership Centers to determine which of 
these will be retained.

Aerospace Technology Enterprise
    The Aerospace Technology Enterprise contributes to the NASA Vision 
by pioneering and developing advanced technologies. These technologies, 
in turn, improve the air transportation system, access to space, and 
science missions. This Enterprise also develops technology partnerships 
with industry and academia outside traditional aerospace fields. The 
Aerospace Technology Enterprise is comprised of four themes:

            Aeronautics Technology
    NASA's Aeronautics Program develops technologies that can help 
create a safer, more secure, environmentally friendly and efficient air 
transportation system, increase performance of military aircraft, and 
develop new uses for science or commercial missions. This theme also 
enhances the Nation's security through its partnerships with the 
Department of Defense (DOD) and Federal Aviation Administration (FAA) 
and the Department of Homeland Security. Research areas include 
advanced propulsion technologies, lightweight high-strength adaptable 
structures, adaptive controls, advanced vehicle designed, and new 
collaborative design and development tools. In collaboration with the 
FAA, research is conducted in air traffic management technologies for 
new automation tools and concepts of operations. Major funding 
allocation includes three technology initiatives in aviation security, 
airspace systems, and quiet aircraft.
    The fiscal year 2004 budget request for Aeronautics is $959 
million. It includes $169 million for Aviation Safety and Security 
projects, $217 million for Airspace Systems, and $574 for Vehicle 
Systems. The budget request includes funding for three new initiatives:
  --Aviation Security.--The budget includes $21 million for this new 
        initiative ($225 million over five years); it will develop 
        technology for commercial aircraft and airspace protection, 
        including development of damage-tolerant structures and 
        autonomous and reconfigurable flight controls technology to 
        prevent aircraft from being used as weapons and to protect 
        against catastrophic loss of the aircraft in the event of 
        damage from sabotage or explosives.
  --National Airspace System Transition.--The budget includes $27 
        million for this new initiative ($100 million over five years); 
        it will enable technology, in cooperation with the FAA, to 
        transition to a next-generation National Airspace System that 
        would increase the capacity, efficiency, and security of the 
        system to meet the mobility and economic-growth needs of the 
        Nation, reducing delays and increasing air transportation 
        efficiency.
  --Quiet Aircraft Technology.--The budget includes $15 million for 
        this new initiative ($100 million over five years); it will 
        accelerate development and transfer of technologies that will 
        reduce perceived noise in half by 2007 compared to the 1997 
        state-of-the-art.
            Space Launch Initiative
    The objective of the Space Launch Initiative is to ensure safe, 
affordable, and reliable access to space. Funding is focused on a new 
Orbital Space Plane for crew rescue and transfer capability, and on the 
Next Generation Launch Technology program for advanced kerosene engine 
development and hypersonic propulsion research and testing. The fiscal 
year 2004 budget request is fully consistent with the fiscal year 2003 
Budget Amendment submitted to Congress in November 2002.
    The fiscal year 2004 budget request includes $1.065 billion for 
SLI, including $550 million for the OSP to develop a crew return 
capability from Space Station by 2010 and crew transfer capability atop 
an expendable launch vehicle by 2012. Funding will support technology 
demonstrators such as X-37 and advanced design studies. The budget 
request also includes $515 million for the Next Generation Launch 
Technology Program to meet NASA's future space launch needs. Funding 
includes advanced kerosene engine development and hypersonic propulsion 
research and testing.
    The budget envisions several key events in 2004:
  --Test flight of DART vehicle to demonstrate autonomous rendezvous 
        technology between a chase vehicle and an on-orbit satellite;
  --Drop test of X-37 vehicle from carrier aircraft to demonstrate 
        autonomous landing capability as a precursor to a possible 
        orbital demonstration; and,
  --Preliminary design review of OSP to support a full-scale 
        development decision.

            Mission and Scientific Measurement Technologies
    This Theme develops crosscutting technology for a variety of 
aviation and space applications. Funding is focused on communications, 
power and propulsion systems, micro-devices and instruments, 
information technology, nanotechnology, and biotechnology. These 
technology advances will have the potential to open a new era in 
aviation and allow space missions to expand our knowledge of Earth and 
the universe.
    The fiscal year 2004 budget request is $438 million, which includes 
$233 million for Computing, Information, and Communications 
Technologies, $44 million for Engineering for Complex Systems, and $161 
million for Enabling Concepts and Technologies.

            Innovative Technology Transfer Partnerships
    This theme develops partnerships with industry and academia to 
develop new technology that supports NASA programs and transfers NASA 
technology to U.S. industry. The fiscal year 2004 budget request 
introduces a creative partnership program to sponsor dual use 
technologies, called Enterprise Engine, and is discontinuing the 
existing centralized commercial technology promotion efforts and, 
instead, recompeting and refocusing our technology transfer programs 
across the Enterprises to maximize benefits to NASA and the taxpayer.
    The fiscal year 2004 budget request is $169 million, which includes 
$5 million for the Enterprise Engine, $33 million for recompeting and 
refocusing technology transfer efforts to maximize benefits, and $131 
million for the SBIR/STTR programs.

Education Enterprise
    Education is NASA's newest Enterprise, established in 2002, to 
inspire more students to pursue the study of science, technology, 
engineering and mathematics, and ultimately to choose careers in those 
disciplines or other aeronautics and space-related fields. The new 
Enterprise will unify the educational programs in NASA's other five 
enterprises and at NASA's 10 field Centers under a One NASA Education 
vision. NASA's Education will permeate and be embedded within all the 
Agency's activities.
    NASA's Education Program will provide unique teaching and learning 
experiences, as only NASA can, through the Agency's research and flight 
capabilities. Students and educators will be able to work with NASA and 
university scientists to use real data to study the Earth, explore 
Mars, and conduct other scientific investigations. They will work with 
NASA's engineers to learn what it takes to develop the new technology 
required to reach the farthest regions of the solar system and to live 
and work in space. It is important that the next generation of 
explorers represents the full spectrum of the U.S. population, 
including minority students and those from low-income families. To 
ensure the diversity of NASA's workforce, our educational programs pay 
particular attention to under-represented groups. NASA Education will 
support our Nation's universities to educate more students in science 
and engineering by providing meaningful research and internship 
opportunities for qualified students, plus a roadmap for students to 
seek NASA careers.
    The fiscal year 2004 budget request of $170 million includes $78 
million for education programs including the continuation of pipeline 
development programs for students at all educational levels with the 
continuation of Space Grant/EPSCOR programs and $92 million for 
Minority University Research and Education. It also includes $26 
million for an Education Initiative that encompasses the Educator 
Astronaut Program, NASA Explorer Schools Program, Scholarship for 
Service, and Explorer Institutes.

Space Flight Enterprise
            International Space Station
    This theme supports activities for continuing a permanent human 
presence in Earth orbit--the International Space Station. The Space 
Station provides a long-duration habitable laboratory for science and 
research activities to investigate the limits of human performance, 
expand human experience in living and working in space, better 
understand fundamental biological and physical processes using the 
unique environment of space, and enable private sector research in 
space. The Space Station allows unique, long-duration, space-based 
research in cell and development biology, plant biology, human 
physiology, fluid physics, combustion science, materials science, and 
fundamental physics. It also provides a unique platform for observing 
the Earth's surface and atmosphere, the Sun, and other astronomical 
objects.
    The Space Station program is well on its way to completing work on 
the U.S. Core Complete configuration, which will enable accommodation 
of International Partner elements. Flight elements undergoing ground 
integration and test are proceeding on schedule, and the last U.S. 
flight element is scheduled for delivery to NASA by the spring of 2003. 
Fiscal year 2004 funding drops as planned, as development activities 
near an end, and on-orbit operations and research becomes the focus of 
the program. The budget maintains proposals reflected in the fiscal 
year 2003 Budget Amendment, including additional funds for reserves and 
funding for Node 3 and the Regenerative Environmental Control and Life 
Support System (ECLSS). The budget continues significant progress 
toward resolving the Space Station management and cost control issues 
that confronted the program at the end of 2001. Many changes based on 
recommendations of the ISS Management and Cost Evaluation (IMCE) task 
force have increased NASA's confidence in achieving success with the 
U.S. Core Complete station. Management changes have been made to ensure 
that ISS capabilities are driven by science requirements, and to make 
appropriate decisions as the program moves from development into 
operations.

            Space Shuttle
    The Shuttle, first launched in 1981, provides the only capability 
in the United States for human access to space. In addition to 
transporting people, materials, and equipment, the Space Shuttle allows 
astronauts to service and repair satellites and build the Space 
Station. The Space Shuttle can be configured to carry different types 
of equipment, spacecraft, and scientific experiments that help 
scientists understand and protect our home planet, explore the 
universe, and inspire the imagination of the American people.
    Fiscal year 2004 budget request of $3.968 billion supports the 
planned steady state flight rate of 5 launches per year beginning in 
fiscal year 2006. It provides $379 million (and $1.7 billion over five 
years) for the Space Shuttle Service Life Extension Program, which will 
improve safety and infrastructure needs to allow flying of the Space 
Shuttle well into the next decade.

            Space and Flight Support
    The fiscal year 2004 budget request of $434 million supports space 
communications, launch services, rocket propulsion testing, and 
advanced systems. Funding is provided for cleanup of the Plumbrook 
facility and tracking and data relay satellite follow-on studies. The 
overall funding level reflects the planned transfer of certain space 
operations responsibilities to other Enterprises.

    Senator Bond. Thank you very much, Mr. Administrator. I'm 
going to yield my time to the Chairman of the full committee, 
Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I'm 
delighted to have an opportunity to be here with the 
Administrator. I do have a couple of comments and we look 
forward to working with you, my good friend.
    I note the reduction in aeronautics allocation and the 
reduction in the educational allocation as compared to 2003. 
This is the 100th anniversary of manned flight. We are, I 
think, in a position where we ought to demonstrate to the world 
that we recognize the great impact of that flight, and I hope 
that we're not going to be eliminating some of the research 
that from my point of view is extremely vital to the future of 
aeronautics.
    For instance, there was a research project going on trying 
to find out a way to deal with the sonic boom. I haven't heard 
about that for several years. Currently we cannot fly across 
the land mass with commercial aviation beyond the speed of 
sound because of the impact of the sonic booms.
    We also have in terms of the education program a series of 
initiatives that have inspired young people to consider a 
career in space, and your agency. I'm one that firmly believes 
that the dreams and desires that you form as a child, even at 
the 5th, 6th or 7th year, are the ones you want to pursue for 
the rest of your life, and I think it's highly important that 
we continue that stimulus through the education programs. I 
will be interested to see how you are going to allocate the 
decrease within your department, because I do hope that we 
maintain the concepts that we need for that.
    My only question to you, though, if I may ask a question 
right now is, what are you going to do about the Wright 
brothers celebration in December?
    Mr. O'Keefe. Thank you, Mr. Chairman, I appreciate it. We 
are always guided by your superior wisdom in these respects, no 
doubt about it.
    Senator Stevens. Not wisdom, inquiry.
    Mr. O'Keefe. As it pertains to aeronautics, again, in the 
coming year there is a 5 percent increase. What is really the 
question is the out-year projections. In working with Marion 
Blakey at the FAA, I think we will see some change in that. So 
our out-year projections will be fine here when we go back and 
take a look at it. But we really kind of held that as a 
baseline in order to develop this effort in concert with the 
FAA to specifically look at aeronautics improvements on a 
variety of different issues. For 2004 it's an increase up and 
we will continue on.

                        DOD/FAA/NASA TASK FORCE

    Senator Stevens. Some time ago I suggested that there be 
sort of a task force between DOD, FAA and NASA, to insure that 
there would not be a redundancy, that there would be a sharing 
of effort in the future aspects of aeronautics research. I hope 
that continues.
    Mr. O'Keefe. Yes, sir, absolutely. As a matter of fact, 
that's precisely where we're going. Marion Blakey will be 
leading that, I will be participating, along with Dr. Ron Sega 
from Defense, and the three agencies and departments involved 
in this are hitting the ground exactly the way you talked about 
it. That's why I think the out-year numbers at best are a place 
holder baseline that I anticipate we will adjust as a 
consequence of the efforts that come out of this effort that 
Marion is putting together now.
    On the education front, I need to get some numbers for the 
record, because our intent was to increase and increase 
dramatically in terms of the education focus, and the 
activities we're involved in. We have a lot of outreach 
programs as well as support for a range of the other eight 
nonprofit or nongovernment organizations that are really 
dedicated to a research and education focus. The educator 
astronaut issue, so forth, have all been designed to 
specifically stimulate that kind of interest for precisely the 
age group you're talking about. If you don't catch folks in 
that middle school, junior high kind of focus area, they are 
likely not to want to pursue math, science, engineering, 
technology-related activities. So we spend a lot of time really 
focusing our energies on that age group more than any other, 
because in many respects that's where the formulative kind of 
ages are really based in terms of a pursuit of those kind of 
professional opportunities in the time ahead. So, we're 
concentrating on that an awful lot, and we will provide some 
better information for you. I think we will have an opportunity 
later this afternoon to get together on this issue, and I will 
make sure I bring that with me.
    Senator Stevens. Good. I would like to see something in the 
record on that.
    Mr. O'Keefe. Yes, sir, absolutely.
    [The information follows:]

                           Academic Programs

    NASA requested $153.7 million in fiscal year 2002 for Academic 
programs. However, during the appropriations process, Congress added a 
one-time increase of $73.6 million for 20 separate Congressional 
interest projects for that year. The fiscal year 2004 request of $169.8 
million is in full cost, and includes a $10 million increase in 
education funding for the new initiatives described in the agency 
request.

    Senator Stevens. Thank you, Mr. Chairman.
    Senator Bond. Thank you, Senator Stevens.
    Senator Mikulski. Senator Stevens, before you go, one thing 
you should know that Senator Bond and I did last year to 
increase graduate students going into the science field. 
Working with Senator Bond through the National Science 
Foundation, we provided graduate student stipends in the basic 
science, physics, chemistry, for $18,000 a year. This year we 
raised it to $22,000 and Dr. Colwell said there was a 30 
percent increase in the number of American graduate students 
interested in going to graduate school in these fields. So 
we're working on this and we want to talk with you about it.
    Senator Stevens. Good, thank you.
    Senator Bond. We need a bigger allocation.
    Senator Mikulski. We need a bigger allocation, right.
    Senator Bond. Senator Mikulski.
    Senator Mikulski. Senator Bond, why don't you go right 
ahead? We afforded the courtesy to the chair of the committee, 
but why don't you lead it off?
    Senator Bond. Thank you, Senator. Shuttle costs.
    Senator Mikulski. Senator Stevens is emeritus. I mean, he 
goes first no matter what. He is A and you're A-1.
    Senator Bond. No, we're all equal but he's just a little 
more equal.

                             SHUTTLE COSTS

    Potential shuttle costs, what funding requirements do you 
anticipate in 2003 and 2004 to respond to the Columbia accident 
for repairing the space shuttle, slips in the space station, 
shuttle, changes in the research? I know we don't have a final, 
but do you have a ballpark guess or an estimate of what that 
might be?
    Mr. O'Keefe. As it stands right now, the recovery effort 
has largely been covered by the Federal Emergency Management 
Agency as a consequence of their disaster relief allotment or 
allocation that the Congress provides each year. That's going 
to total something on the order of about $235 million is the 
current estimate, that FEMA is using to reimburse the U.S. 
Forest Service, the EPA, other Federal agencies, and the State 
and local government activities. Our costs at NASA are well 
within the $50 million incremental cost differences that the 
Congress provided funding for in the fiscal year 2003 
appropriation made in February.
    Our efforts primarily are in support of, again, the 
Columbia Accident Investigation Board, and within that 
allocation, that will cover the incremental differences as we 
move to current. In total cost for all activities, if we added 
everything we did in this, it would probably----
    Senator Bond. Just NASA.
    Mr. O'Keefe. Yes, sir. Again, within that $50 million you 
provided, I think we're going to cover that as an incremental 
cost difference and that's going to work. To the extent there 
is any incremental costs above that, we will be back to testify 
on what that will take, but it's really not, at this juncture 
we think it's going to be well within it on an incremental 
marginal cost basis.
    The differences in shuttle and Station, right now we're not 
incurring any costs, because the fleet is grounded. So the 
expense to continue in a ready status, the ability to return to 
flight as expeditiously as we can, is well within the 
allocations that have been made for shuttle launches, as well 
as International Space Station, where we are processing the 
modules as we have been in order to ready for that return 
flight as soon as we can get there.

                        ISS'S RESUPPLY MISSIONS

    Senator Bond. The International Space Station's resupply 
missions, I understand the partners have yet to come up with a 
final agreement on how to provide $100 million for additional 
Russian vehicles. I would like to know what the status is of 
discussion with the other partners regarding how to fund the 
Russian production and will they be able to provide the needed 
funding or are we going to have to ask for a waiver from or 
amendment to the Iran Nonproliferation Act so that NASA can 
provide some of the funding?
    Mr. O'Keefe. Well, as you mentioned in your opening 
statement, sir, the actions are speaking louder than anything 
else. The Russians launched the Soyuz rocket, and Ed Lu and 
Yuri Malenchenko not only launched successfully, they are there 
on International Space Station today. Ken Bowersox, Don Pettit, 
Nikolai Budarin will come back on the Soyuz. The Progress 
flights that were planned, the unmanned logistics resupply 
flights that are planned, there's one going up in June, there 
is another we're seeking to accelerate into November. All those 
are going exactly according to the plan and the Russians have 
stepped up in a very substantial way.
    I'm leaving tomorrow to go welcome home Don, Ken and 
Nikolai, and I will spend a little time with Yuri Koptev, who 
is the head of the Russian Space Agency. I do not anticipate 
any requirements to waive or consider the Iran Nonproliferation 
Act. The partners are acting like partners.

                          ORBITAL SPACE PLANE

    Senator Bond. Good. Well, given the fact that we are so 
dependent on the Russians, the orbital space plane would 
provide an alternate mode to the Russian vehicle and to the 
shuttle for taking crews and a limited amount of cargo to the 
Space Station. To what extent can development of the orbital 
space plane be accelerated so the capability is available as 
soon as possible, and what's your current estimate for the cost 
of the orbital space plane?
    Mr. O'Keefe. Currently, I just went through an exercise 
here in the last couple of weeks to try to look at all the 
acceleration options that may be possible. It turns on two 
things. The first one is, there are competing designs, there 
are at least three major contractors who have different 
approaches on how to deal with what is a very short list of 
requirements. We have kept this very minimal. You can list all 
the requirements for the orbital space plane on a single page. 
There isn't any ambiguity about what it is we're looking for in 
terms of its requirements and capabilities we seek it to 
perform at.
    Now depending on what kind of approach those various 
contract proposals may come back with here in the next 9 
months, that will tell us a lot more about how fast or how slow 
it's going to be in terms of delivery. In terms of overall 
cost, I wouldn't want to compromise their ingenuity, 
imagination or creativity one dime until we see what they come 
up with.
    Senator Bond. Okay, I got that answer. Senator Mikulski.

                            RETURN TO FLIGHT

    Senator Mikulski. Thank you, Mr. Chairman.
    Mr. O'Keefe, when do you think the shuttle will fly again? 
I understand that NASA announced it was taking interim steps to 
prepare a return to flight before the Gehman Commission had 
finished its final report.
    Mr. O'Keefe. What we announced is we are making 
preparations now to return to flight as early as the end of 
this calendar year, so we can be in a position if all the 
findings and recommendations come forward, and do not impede 
that opportunity, we will not be in a position when the report 
comes out to say well, I guess now we ought to start thinking 
about returning to flight. We are trying to do all the 
preparation work in order to do that, and we are implementing 
their findings and recommendations.
    Senator Mikulski. Well, here's my question, because I don't 
think the Gehman report is going to be done until July, and I 
don't want to go rushing back into flight. I think when we go, 
we have to be sure in the most meticulous, arduous way that we 
are ready to go and therefore, turn to the lessons learned from 
the Gehman Commission not only to what went wrong, but the 
other issues addressed.
    But to go back to the question now with respect to 
preparing for launching, first, how are you preparing, and 
second, not only from the technical and engineering and safety 
aspects, but are you preparing in terms of money? In this 
President's budget request, NASA only gets $55 million more. 
That's just slightly above 2003.
    Here is my worst fear from a financial standpoint. We have 
the Gehman report in July and we've already marked up and we're 
already meeting down on our flight plan. There is a substantial 
price tag to being ready to return to flight. How do we get it 
in the appropriations bill and if we don't, then we cannot have 
that whole issue of NASA going to other important programs to 
get the money like they did when the station was running such 
horrific cost overruns. And congratulations to you for bringing 
about that discipline there.
    So you see what I'm worried about, one, that we really know 
how to go back to flight and that we are able to correct the 
mistakes. And at the same time, where is the money going to 
come from and when will it come? Because we have to be talking 
about it now. Do you have estimates, could you elaborate?
    Mr. O'Keefe. Thank you, Senator. Well, first and foremost, 
110 percent, we will not fly again until we can satisfy 
ourselves that we can do so safely. We are not rushing to that 
objective. What we are doing is preparing ourselves to assure 
that we implement the findings and recommendations which are 
starting to come out now from the Gehman board, as 
expeditiously and as thoroughly as we possibly can, to make 
absolutely certain we tack down every prospect of what's 
necessary and what they're observing as changes necessary to 
return to safe flight.
    So, if we're diligent about that and if there are no 
hardware process showstoppers in this, we anticipate we could 
be looking at the early part of next fiscal year of flying 
again. Between now and then, we'd planned six flights for this 
fiscal year. We only conducted two, STS-113 and STS-107.
    Senator Mikulski. So you have money in the pipeline?
    Mr. O'Keefe. Yes, ma'am.
    Senator Mikulski. Because I have other questions.
    Mr. O'Keefe. Absolutely. So that is there, we're not 
expending the cost of launch services as a result of that.
    Senator Mikulski. So you anticipate that you are not going 
to need additional funds?
    Mr. O'Keefe. No, I didn't suggest that. But you will find 
right now, in order to prepare for flight as soon as we get the 
full report and understand all the finding of what's going on, 
and we will be receiving those over the course of the next 2 
months, we may be in a position to better estimate what that 
will take, and advise the Congress.
    Senator Mikulski. Do you have any concept now, or are you 
reluctant to say?
    Mr. O'Keefe. I have not even a parameter of what the cost 
difference will be relative to how much we have in the budget 
today. Until we really get the findings and recommendations 
from the board, it really does not lend itself to that. The 
only things we have right now are an estimate, for example, on 
differing options and----

                       PRESIDENT'S BUDGET REQUEST

    Senator Mikulski. I understand. Let me just say this. I am 
very troubled by the President's budget request. I think it is 
status quo, and I think we needed another $500 million more, 
one, to catch up with a tattered infrastructure, the things 
that got worn well before you came, and two, a banking of what 
we might need for the shuttle based on the recommendations.
    So to only have $55 million and not in the President's 
budget request, we are really going to be shackled in terms of 
how to proceed here. And we don't want you to short change 
these other items that you listed, very worthwhile projects, 
some exciting, some crucial to saving lives of not only 
astronauts but here on Earth. We like where you're heading, but 
I'm afraid we are going to be heading for a real fiscal issue 
on the appropriations process.
    And then also, thanks to the Russians, having their Soyuz 
that's worked as a lifeboat in space, but Russia is a 
financially-strapped country. That's why Senator Bond asked how 
we can reimburse them so that the money goes to the space 
agency and is not scattered through the other Russian financial 
problems.
    So I'm very concerned that we support what you need to do, 
and have the wherewithal, that we help the Russians meet their 
responsibilities and the spirit in which they pay for it. And I 
know my time is up, but you see where I'm going.
    I also have a lot of questions about Hubble, staffing, and 
the infrastructure.
    Mr. O'Keefe. If I could, Mr. Chairman, just kind of real 
quick, the budget we submitted on February 3 is empirically 
about $460 million more than what the President requested the 
year before. Congress acted on that request weeks later. So 
what you have observed here is absolutely accurate, relative to 
the appropriation that the Congress enacted weeks after this 
budget was submitted to you at the time, it was again, $450-odd 
million difference, versus the difference of $100 million now, 
as a consequence of what the Congress did enact during the 
course of the subsequent enactment as part of the omnibus 
appropriations bill. We will continue to look at this. I assure 
you, our intent is not to rob other programs in order to pay 
for shuttle costs. That will not be in the mix. Not the intent, 
won't do it.
    Senator Bond. Thank you very much, Sean. Senator Craig.

                  STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. Mr. Chairman, thank you. I will be brief, I 
have to run to another committee, but I did want to stop by and 
say hello to Mr. O'Keefe. Again, thank you, I appreciate the 
visit we had at NASA earlier this year.
    I know you have all been tragically busy since that time, 
and of course I think all of us are very anxious for the report 
to be completed and to get our shuttles flying again under all 
of the conditions that are safe and appropriate. Because 
clearly, I think the combination of the advancement in the 
space agenda and our science agenda, it plays such a key role 
and is critical.
    And slowly but surely, this Congress is shifting a little 
bit toward the physical sciences again, and I'm very pleased 
about that. We have expended a great deal in the biological 
sciences and we're proud of that, but we also recognize that we 
need to push the other envelope a bit more than we have.
    I would suggest you take a look at a bill that just came 
out of the Energy Committee, Director O'Keefe, as it relates to 
your nuclear systems initiative. We hope this Congress and 
certainly this administration, is moving in a new direction 
again as it relates to nuclear reactors and new passive safe 
reactors, and of course coupling with the Navy is appropriate 
for where you want to go and I think most appropriate, the 
efficiencies that we have achieved there are exciting. But GEN-
4 reactors and new advance fuel cell technology may well couple 
with what we want to do, what you want to do out there in space 
with that kind of power plant that should be able to be done 
effectively and in a miniature or small way that we're looking 
at.
    So hopefully we can move this agenda with the cooperation 
of our colleagues. It is a bold one and this administration 
appears to want to be bold in that area, and I am confident 
that a good many of us now do.
    Recognizing the importance of that, we're going to couple 
that particular project with hydrogen electrolysis creation, 
and so we hope to get this Congress looking forward to new 
energy instead of standing still.
    Of course, your mention of radiation as I was coming in is 
important to all of us. As you know, the University of Idaho 
has played a great role and our colleagues there and their 
association with you in radiation, hardening electronics. So 
I'm excited that we advance that. We learned something about 
the ability to protect our tools, now we ought to be able to 
learn something about the ability to protect our people a 
little more in the appropriate way.
    And lastly when we get the shuttle flying again, your 
educator in space program flies with it, and that is exciting. 
Our friend Barbara Morgan from Idaho plays a key role in that, 
and thank you again for allowing her what she does so well. 
Those are all important to us.
    But I'm hoping this committee and this administration will 
stay high on what we're doing because it is important to the 
future of our country. And if we don't think what we do has 
application across the board for the pushing of the sciences 
and technology, it just got demonstrated so effectively in 
another part of the world that sets us apart as a unique 
country. But our willingness to use those technologies for 
mankind's betterment is also demonstrated largely. So, thank 
you for your work and I will be here encouraging and working 
with our Chairman and our Ranking Member to make sure the 
resources are available. Thank you.
    Mr. O'Keefe. Thank you, Senator. I appreciate your support.
    Senator Bond. Thank you very much, Senator Craig. Senator 
Shelby.

                INTEGRATED SPACE TRANSPORTATION PROGRAM

    Senator Shelby. Thank you, Mr. Chairman.
    I believe NASA's integrated space transportation plan 
contains three important and critical elements for our Nation's 
future in space, the shuttle life extension, the orbital space 
plane, and the Next Generation Launch Technology Program.
    Given that the Next Generation Launch Technology Program, 
NGLT, is largely a technology development program, is it at 
risk for becoming a real player for any cost overruns 
associated with the shuttle life extension program or the 
orbital space plane?
    Mr. O'Keefe. I don't believe so.
    Senator Shelby. You don't?
    Mr. O'Keefe. I think in the time not too far ahead, we will 
be seeing greater definition for the next generation launch 
technology. We're working very, very closely with the Defense 
Department in order to get a partnered and joint program kind 
of effort that's compatible to assure access to space and 
launch access, which is their concern as well, that I think we 
will really put some definition on that. Our intent will 
certainly be to have that be a program that stands on its own. 
We're looking at that to be the mantra that we intend to live 
by.

                     LAUNCH TECHNOLOGIES--NASA/DOD

    Senator Shelby. What about NASA's unique needs and DOD's 
requirements? What kind of challenges do you have there and how 
do you address those challenges?
    Mr. O'Keefe. The efforts that really are very common 
between Defense and NASA are for launch technologies. The 
various approaches, whether they be horizontal or vertical in 
terms of the efforts that can be carried out, one of the ways 
is we're working to identify where those common technologies 
really have greatest application is through the national 
aerospace initiative that Dr. Ron Sega is championing, to 
really emphasize our partnering arrangements with them on 
hypersonics, and a range of very specific structures and 
propulsion initiatives they have pursued that we're doing 
jointly with them. That becomes the areas where I think our 
greatest leverage of each other's capability can really be 
expanded in order to see some specific yield for both NASA and 
DOD.

                            EXPLORER PROGRAM

    Senator Shelby. On February 3 of this year, NASA released 
an announcement of opportunity for the explorer program focused 
on small explorers and missions of opportunity. I have been 
told that despite Marshall's experience in development and 
management of science spacecraft, that this announcement of 
opportunity prevents Marshall from having a project management 
or end-to-end systems engineering role. If that's true, this 
announcement of opportunity doesn't track with what I 
understand to be NASA's philosophy and your philosophy of one 
NASA.
    Mr. O'Keefe. Yes, sir.
    Senator Shelby. Are you familiar with that announcement?
    Mr. O'Keefe. No, sir, I'm not. Let me look into it and get 
back to you.
    Senator Shelby. Will you check on that and get back to us?
    Mr. O'Keefe. Yes, sir.
    [The information follows:]
          Small Explorer Mission (SMEX)/Mission of Opportunity
    NASA's Announcement of Opportunity (AO) released on February 3, 
2003, for a Small Explorers Mission (SMEX)/Mission of Opportunity 
included the following language:

    ``For free-flyer SMEX missions, if project management and end-to-
end systems engineering are to be implemented from a NASA center, then 
these functions must be performed by one of the centers designated by 
the Office of Space Science: either the Jet Propulsion Laboratory (JPL) 
or the Goddard Space Flight Center (GSFC) . . .''.

    The language included in this Announcement of Opportunity was 
consistent with a July 2002 Agency policy decision to limit project 
management and end-to-end systems engineering implementation for Space 
Science and Earth Science missions by a NASA Center to the Goddard 
Space Flight Center (GSFC) and the Jet Propulsion Laboratory (JPL). The 
July 2002 policy decision was based on a 1996 Zero Base Review 
recommendation to consolidate aerospace operations to fewer Centers, 
with the objective of consolidating engineering and test facilities, 
consolidating and aligning functional management expertise, and 
strengthening science programs, consistent with the NASA Procedure and 
Guideline (NPG) 1000.3 concerning the NASA Organization.
    GSFC and JPL are recognized by both the Space Science and Earth 
Science Enterprises as mission-implementing Centers for management and 
system design and implementation of space missions. GSFC and JPL have 
strong foundations in this area, and have made substantial and distinct 
investments to provide such expertise and services in the future. The 
Marshall Space Flight Center (MSFC) is the Agency's Center for space 
transportation systems development, microgravity research, and optics 
manufacturing technology. MSFC provides leadership in the areas of 
management and implementation of research, technology maturation, 
design, development, and integration of space transportation and 
propulsion systems, including Space Shuttle propulsion element 
improvements, reusable launch vehicles, vehicles for orbital transfer 
and deep space missions, and qualification verification of new 
expendable launch vehicles.
    The July 2002 Agency policy decision was not intended to prevent 
Centers other than GSFC and JPL from proposing as Principal 
Investigators, or proposing hardware, software, etc., in response to 
NASA Announcement of Opportunities; in fact, those Centers are 
encouraged to do so.
    Nevertheless, the Agency is currently in the process of re-
examining and re-validating the policy. We will apprise the Committee 
of the results of this effort upon its conclusion.

                          PROPULSION RESEARCH

    Senator Shelby. We appreciate that very much.
    We know that you're developing a portfolio of propulsion 
research in both earth-to-orbit applications and in space 
applications. Can you describe the balance that you're trying 
to strike between the two investments here and what challenges 
you see on the horizon for each one of these activities?
    Mr. O'Keefe. Yes, sir. The first, I think, as we discussed 
a moment ago in terms of launch technologies, primarily the 
next generation launch technologies is a focused part of the 
space integration plan, so much of what you see there is not 
commingled or in competition with the in-space propulsion 
effort which is almost, well, largely focused on the Project 
Prometheus effort. It is both power generation and propulsion 
capabilities. There's an awful lot of effort and energy on both 
fronts, but they are not again, they're being looked at as 
separate propositions. One is, how do you accomplish the rate 
of 8\1/2\ minutes into low-earth orbit, which is our launch 
technology, as well as then once there, how do you find any in-
space propulsion capability, of which we have none right now?
    The only capability we have, however limited, I shouldn't 
say none, is we use gravity assist, we really hope to get into 
the right orbit pattern in order to head anywhere in this solar 
system is about the best we can do, that uses a very, very 
limited kind of solar electric generated power source.
    The capabilities, just to give you a context of that, that 
must be utilized on any mission for a spacecraft, unmanned 
particularly, has to have a maximum power generation yield of 
no more than two 60-watt light bulbs. So this room would be max 
energy they have never had anywhere. With the nuclear systems 
effort and the power Project Prometheus would provide, is about 
100 times this kind of power generation capability in order to, 
incidentally, provide for propulsion of any variety----
    Senator Shelby. That's a big leap, isn't it?
    Mr. O'Keefe [continuing]. Of power generation, but also the 
ability to sustain the science and research force. These are 
two very distinct approaches that we're taking to this. They 
are not in competition with each other at all.
    Senator Shelby. Mr. Chairman, I have some other questions 
but I will wait my next turn.

                           PROJECT PROMETHEUS

    Senator Bond. Thank you, Senator Shelby.
    Mr. Administrator, speaking of Prometheus, I have some 
questions about it. You have shown in your request about $3 
billion needed for the first 5 years, 2004 to 2008. But I 
understand the head of NASA's Space Science Office, Dr. Wyler 
was quoted in Science Magazine recently as saying the cost of 
Prometheus through 2012 would be $8 to $9 billion. And of 
course unfortunately, we know the preliminary cost increases 
are never overblown.
    I am concerned about whether this project is going to 
consume such a large amount of the space science funding that 
other initiatives are funded, or are not going to be funded. 
What percentage of the funding is for building spacecraft and 
what for building nuclear power and propulsion systems, and 
could the costs be lowered by building less ambitious 
spacecraft since you know, since this is the first shot and if 
something goes awry, we don't want to lose it. Give me a little 
idea of your cost containment on this.
    Mr. O'Keefe. Yes, sir. The budget before you are the 
numbers I stand by and they are through the next, at that 5-
year span, a little over $3 billion for the development effort 
for nuclear propulsion and power generation capabilities. It 
also begins the first demonstrator, if you will, of that 
capability, which will provide around Jupiter's moons a mission 
in the early part of the next decade, a multiple on-orbit pass.
    For example, if you look at the number of on-orbit passes 
we can go, it would probably take you the better end of 10 to 
20 missions. If each one of them costs some number of hundreds 
of million dollars, multiply it by that number and that's how 
much it would take in order to pursue this. So this is going to 
be significantly less expensive to pursue as multiple on-orbit 
efforts at various planetary objects than anything we could do 
elsewhere. We get one fly-by on every other spacecraft, one, 
and if the cameras don't work, the instrumentation isn't right, 
whatever, it's a lost mission entirely.
    So this is an approach to really enhance the capability to 
do many, many fly-bys, get there a lot faster, do it in a more 
expeditious period of time, and the development cost in this 
next 5 years is that much. Then from there on, each of the 
individual missions are going to be stand-alone costs. In the 
case of the Jupiter moons project which will be the first demo 
of that capability, which is due to launch towards the end of 
the decade, beginning of next, that will be an estimate we will 
refine over the course of the next year or so, when we will be 
able to provide a much more authoritative number of what that's 
going to cost. In terms of development expenses, it's $3.5 
billion.

                          ORBITAL SPACE PLANE

    Senator Bond. And then you've got the orbital space plane, 
that could be another $3 billion, so you have some big ticket 
items. Are you sure you aren't going to be squeezing something? 
OMB is going to have to start smiling on you and us a lot more 
kindly if you're going to get all these done.
    Mr. O'Keefe. Well, the 5-year plan that's projected as part 
of this request has the Agency submission rising to nearly $18 
billion by the end of fiscal year 2008, I believe it is. This 
is fully funded, that's the total estimate we believe it's 
going to take to do everything in there. This is the 
President's budget request, so everybody is in agreement with 
what those numbers say. So as a consequence, if he stands by 
them, I sure can stand by them because he's put his imprimatur 
on it.

                        RECRUITING AND RETENTION

    Senator Bond. I have been very much concerned, as Senator 
Mikulski is, about the staffing of NASA and making sure that we 
have the right people. I know we are facing a significant 
shortage. We need a home-grown new generation of engineers and 
scientists. There's a retirement crisis coming, and there is 
not an adequate pool now in the United States to meet the 
needs. So we are, as the Senator has said, working with NSF.
    But I question whether NASA needs incentives to retain 
staff. To NASA's credit, the employees see themselves as part 
of the family and they don't seem to be leaving. But I am 
particularly concerned about buy-outs. Do we need additional 
buy-out authority if 25 percent of the current NASA work force 
is eligible for retirement within 5 years and there are not 
enough scientists and engineers to replace them? And so I ask, 
why do we need to hire them?
    And I'm also concerned about buy-out authority because I 
understand that sometimes we buy out these employees, they 
leave and then go to work for a contractor at a higher salary, 
and we get to pay that salary after we've bought them out, we 
get to pay for a very wonderful high class scientist at a 
significantly increased rate. How are you going to protect 
against that problem? I kind of have a different view of 
solutions for solving your staffing needs.
    Mr. O'Keefe. Thank you, Mr. Chairman. Indeed, the personnel 
management approaches that can be taken, the full range of 
those tools was requested in the President's legislation he 
submitted last June to follow through with that. It is 
recruitment, it's retention, and it's also professional 
development. All the authority we need on buy-outs and so 
forth, I concur with you. I think we need to be very targeted 
on how we do that, and use it under very limited circumstances. 
Right now, retention is a better approach. The catch is, we're 
faced with an actuarial reality which is, I represent the 
average age of the agency. I am 47. There are three times as 
many scientists and engineers who are over 60 as we have under 
30. So no matter how long I try to retain folks under any set 
of circumstances, an actuarial reality is going to set in here 
and in some specific core competence fields like again, nuclear 
engineers for example, we know we're going to need more of them 
in the time ahead.
    We have a current retirement rate that is hovering around 
the 50 percent range that will be eligible in the next 3 years. 
So not only do you need more folks in certain competencies, you 
also need folks who are going to replace the seasoned veterans 
that are there before they actually depart. So the approach 
we're really looking to is heavy on the recruitment side, heavy 
on the professional development end of the folks that are there 
now, mid-level entry of some of the people who have a decade of 
experience with an engineering firm of comparable nature to 
come in and be part of that pool, and then some selected 
targeted kind of retention efforts in order to keep that talent 
base around.
    But again, as an actuary, there are a lot of folks who 
simply aren't going to stay beyond a certain level. We're not 
really as anxious to look at moving people out as bringing 
folks in in a timely enough manner to make that effective. So 
any combination of the President's proposal, the Voinovich 
bill, the House bill, whichever ones you like, please vote 
early and often for any of those. We could use any of those 
tools. We are right now strapped to the position we are limited 
to at present.
    Senator Bond. Thank you very much, Mr. Administrator. I 
have reached the end of my useful life cycle today and I am 
going to turn the hearing over to Senator Mikulski and then to 
Senator Shelby to continue as long as they wish. I look forward 
to reading at some later date the rest of your testimony and I 
thank you for your testimony today.
    Senator Mikulski.
    Mr. O'Keefe. Thank you, Mr. Chairman. I appreciate your 
courtesy, as always.

                         HUBBLE SPACE TELESCOPE

    Senator Mikulski [presiding]. Mr. Administrator, my 
questions are going to be specific because the time is moving 
along.
    I want to go to the Hubble and the consequences of what's 
happened because of Columbia to the Hubble. Columbia was 
supposed to service the Hubble telescope in 2004. The question 
is will it be able to do that? Will we be able to accommodate 
Hubble servicing missions; will we be able to extend the life 
of Hubble because it needs servicing? Can you describe to me 
the consequences to the Hubble because of the Columbia 
accident?
    And second, what then would be the consequences to the 
appropriations request?
    Mr. O'Keefe. Thank you, Senator. The budget for fiscal year 
2005 will cover the November 2004 launch of the servicing 
mission that was planned. As soon as we get back to safe flight 
operations, we will assess that timing to determine if that 
date or other, we won't just shift it to the right, but we will 
continue that servicing mission as soon as we need to in order 
to make sure Hubble stays viable.
    You're exactly right. It's an unbelievable instrument. Here 
it is 13 years later, considered to be something 13 years ago 
that would be just a big pile of space junk has turned into the 
miracle that it is today in the astronomy community. So, there 
is no question we want to sustain that, and we will look at a 
servicing mission as soon as we return to safe flight.
    The pacing item is, there are four gyros that are aboard 
Hubble right now, they're all operational. We need at least 
three to operate in the pattern that it's in. So if we see a 
failure at any point in the near future, we may have to look at 
how fast that servicing mission has to be conducted. The next 
mission in November 2004 had been planned to take six gyros up, 
replace them all out, and so that becomes the big pacing item, 
in addition to a number of other things we do on Hubble as 
well, but we will do that as soon as possible, independent of 
the International Space Station flight schedule.
    Senator Mikulski. We need to be kept posted on that.
    Mr. O'Keefe. Yes, Senator.

           ASSOCIATED UNIVERSITIES RESEARCH ASSOCIATES (AURA)

    Senator Mikulski. My other question is, the Hubble, in 
terms of the information captured by Hubble to Goddard, to a 
group called AURA, the Associated Universities Research 
Associates, which is an NGO operating on the Hopkins campus in 
very modest circumstances. I understand that they had a 
contract to run this work for about 10 years, but NASA has told 
them that they might want to recompute the last 2 years of the 
contract. I'm puzzled by that.
    I'm not against competition and certainly you know that, 
from our other conversations, but could you tell me why NASA 
would want to do that, because it places uncertainty for their 
ability to retain really brilliant astrophysicists, et cetera, 
and also even to negotiate proper leases, and so on.
    Mr. O'Keefe. Let me look at the very specific case here as 
soon as I get back to the shop to figure out what the focus on 
this one, or the AURA competition effort is all about.
    But as a general matter, I think exactly as you mentioned, 
it is very much part of our persistent view of saying let's 
always look at competitive alternatives, just if for no other 
reason than to satisfy ourselves that the way we're doing it 
today is a good way of doing it, let's retain that, but let's 
look at alternative sources.
    Senator Mikulski. Well, I understand that, and I know that 
you're also looking at an NGO for the International Space 
Station methodology. I think the genius of what has kept NASA 
so fresh and spectacular has been we have a core group of civil 
servants, we've discussed that in terms of the aging workforce, 
but it's combined with private contractors, again, who 
delivered, they brought freshness and best practices, and what 
a private sector brings. Then they work with universities, but 
also these groups.
    Now AURA is not part of Hopkins, though it's on the campus, 
but again, you have the retention of 300 people at stake. If 
you don't pick them up, they're cosmologists, astrophysicists, 
so many separate fields of physics that I couldn't even 
describe. And at the same time, they provide a very robust 
education program because Hubble, other than our human side, is 
the attraction to young people in space, what it provides to 
science centers and the like. So what they do in education with 
what the Genius Club finds, is stunning.
    So therefore, you could bust that wide open and at least 
300 people that know what to do with Hubble information and 
also what to do about education, the magnet that we want it to 
be, and then how they can also get best value in terms of what 
they need to procure. So, could you get back to me on that?
    Mr. O'Keefe. Yes, ma'am, absolutely.
    Senator Mikulski. Again, I don't want to take a position 
because I don't know all the facts, but do think you ought to 
look at it, because we don't want to create uncertainty just 
for saying we want to compete, because there is importance to 
competition.
    Mr. O'Keefe. Very good. I will take a look at it.
    Senator Mikulski. Senator Shelby.

                     MICROGRAVITY RESEARCH PROGRAM

    Senator Shelby. Thank you. I will try to be brief, Mr. 
O'Keefe, and I appreciate your patience.
    Would you describe the state of the microgravity research 
program within NASA? In particular, how would you describe the 
state of materials and biotech programs?
    Mr. O'Keefe. Yes, sir. The human research initiative that 
is part of our budget request is an effort to, again, 
aggressively look at what consequences microgravity poses, in 
both physiological as well as physical sciences kinds of 
applications. The two areas that are really pretty staggering, 
and I'm not a scientist so I'm easily staggered on these kinds 
of things, and then maybe I'm not easily surprised, is you see 
growth in acceleration as well as dramatic deceleration or 
degradation of physiological conditions. You can grow certain 
cells in microgravity conditions faster, yet at the same time 
it degrades other aspects of physiologic condition.
    We don't understand that. I haven't found a scientist yet 
who really can say gee, we can tell you exactly why this 
phenomenon occurs in both directions, some acceleration in one 
area and the degradation in others.
    Senator Shelby. It has great potential in one area and 
negative aspects in others, is that what you're saying?
    Mr. O'Keefe. Big time.
    Senator Shelby. But there has to be an answer.
    Mr. O'Keefe. Exactly. And so trying to crack that code is a 
big piece of what, you know, as a plebeian in this one by 
comparison, understanding exactly that is a long pole in a tent 
for any human space flight objective. We've got to understand 
what it takes in order to endure and persist in those kinds of 
conditions.
    From a physical sciences side, we've made some remarkable 
efforts, even to include on STS-107, on the Columbia flight, on 
physical sciences and exactly how materials research can be 
conducted better in microgravity conditions.
    But the focus as previously alluded, I think Senator Craig 
mentioned, is on International Space Station more dominant on 
the biological and physiology side of the equation, but there's 
an awful lot of physical materials research efforts that we are 
now looking to enhance once we get back to completing that 
laboratory condition that is really quite illuminating, it 
opens a whole range of doors if we can figure out just alone 
what that phenomenon is of both degradation as well as 
acceleration of cell growth, that would open up a lot of things 
that would have tremendous application.
    Senator Shelby. Microgravity research overall has great 
promise for some unanswered questions too, is that what you're 
saying?
    Mr. O'Keefe. Indeed. The other side of it too, I think is 
really critical to understand, microgravity research conducted 
in an earth-bound laboratory, the best we have been able to do 
is sustain a microgravity condition that even vaguely 
assimilates to what you see on orbit for about a month, and 
that's it, can't sustain anything longer than that. Whereas of 
course, it's a permanent condition on International Space 
Station as well as on shuttles. It has a phenomenon and a 
physiological consequence that is very different than any 
laboratory simulation we've created, bioreactors or something 
else.
    Senator Shelby. It's unique.
    Mr. O'Keefe. Very.

                   SPACE STATION RESEARCH PRIORITIES

    Senator Shelby. Recent language that was included in the 
2003 omnibus appropriations bill directed NASA, and we know 
this is just a few months ago, to re-examine the space station 
research priorities on a regular basis instead of using the re-
map recommendations as a one-time fix. Do you agree with the 
committee's direction there? Have you had time to evaluate 
that?
    Mr. O'Keefe. No, sir. We agree and concur entirely. There's 
no question. The efforts last summer was a start. It was the 
first time, I am very pleased to say, that we got all the 
scientists from all these different communities to sit down and 
agree to a priority. Until they met, everything was number one, 
everything was a top priority, and so as a consequence, nothing 
was a priority. We now have at least a baseline from which to 
make that determination. That means there are some elements of 
the scientific community that aren't as happy with their 
placement in that priority rank as others, but at least it's a 
beginning. So it needs to be reassessed and we fully, 
wholeheartedly agree with the committee's recommendations and 
instructions on a regular effort to constantly update that and 
make it contemporary for what we see in the development of 
International Space Station.
    Senator Shelby. Plus you have flexibility that way.
    Mr. O'Keefe. Yes, sir, absolutely.

                        NUCLEAR POWER PROPULSION

    Senator Shelby. You talked a minute ago regarding the 
development of nuclear-powered propulsion capability. I 
understand that the Jet Propulsion Lab, Glenn Research Center, 
and the Marshall Space Flight Center will play key roles in 
this program.
    Mr. O'Keefe. Indeed.
    Senator Shelby. And the field centers would contribute to 
the overall program?
    Mr. O'Keefe. Yes, sir. The start-off focus here is, the Jet 
Propulsion Laboratory (JPL), will primarily be a design house 
because of the nature of--they have handled all of the, 
essentially the batteries that are nuclear powered, the RTGs 
that we have used with the Department of Energy over the last 
20-odd years, so they have done a lot of design work on that 
side. The Glenn Research Center will look at a lot of power 
generation capacities that we will need in order to harness 
that ability that nuclear reactors can produce to then generate 
power for the science and research activities. And Marshall is 
going to have a very strong lead in looking at a lot of the 
propulsion systems, as will Glenn, so the combination of both 
of them to perform the power generation and propulsion 
capabilities will be very closely interrelated, so that you 
have something that generates power and uses it for different 
purposes. So the prowess of both of those centers is going to 
be essential, an understanding and cooperation effort between 
the two in order to ensure we have a power generation 
capability that's going to be at least a factor of 3 better 
than what it is today.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby [presiding]. Mr. Administrator, I think 
they've all abandoned us now, so I'm through with my questions. 
There might be some questions for the record by other members. 
We appreciate your appearance today, we appreciate your candor, 
and we apologize for the interruptions, but you know about 
interruptions since you worked here.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
               Questions Submitted by Senator Larry Craig

                 ULTRA-LOW POWER ELECTRONICS TECHNOLOGY

    Question. In order to perform greater science as projected in the 
next generation programs planned by NASA, more computation, high data 
rates, and high data volumes are required which must be processed on-
board a spacecraft, especially those in near-earth orbits. In deep 
space programs, including the Nuclear Initiative, mass is an important 
concern.
    NASA has developed a Radiation Tolerant Ultra Low Power electronic 
technology, currently at a relatively low Technology Readiness Level 
(TRL), that appears to have significant promise in terms of performance 
and cost, according to engineers at the Goddard Space Flight Center and 
the NASA Institute of Advanced Microelectronics at the University of 
Idaho.
    What plans does NASA have to bring this technology to maturity 
where it can be deployed into NASA programs?
    Answer. NASA is continuing to fund a grant with the University of 
Idaho (valued at $0.6 million) in fiscal year 2003 for development of 
ultra-low power electronics technology. In July 2003, the Office of 
Aerospace Technology plans to issue an openly-competed $3 million NASA 
Research Announcement (NRA) to solicit proposals for development of 
radiation tolerant ultra-low power electronics. This NRA will fund 
approximately 10-15 research activities for 3 years. The technology 
development activities funded through the NRA are intended to advance 
the maturity of ultra-low power electronics to Technology Readiness 
Level (TRL) 5, which is laboratory demonstration of device operation in 
simulated space radiation environments. A variety of radiation-
tolerant, ultra-low power components will be developed, including 
microprocessors, analog-to-digital converters, and application specific 
integrated circuits.
    Many times NASA, and other Government agencies, create a program 
where a number of related technology developments are funded, but in 
the end they fail to meet the final objective to create technology that 
can be deployed into flight programs. In other words, a set of 
technology developments is created that is not integrated to produce a 
useful product.
    Question. What steps is NASA taking to insure the development of 
the Radiation Tolerant Ultra Low Power electronics program is 
integrated to produce viable high TRL level technology for deployment 
within a few years?
    Answer. Ultra-low power electronics components that have been 
matured in research activities funded by the NRA will be transitioned 
to the NASA Science and Space Flight Enterprises for integration into 
prototype flight systems and insertion into future missions. The 
strategy for accomplishing this transition is to identify potential 
mission applications, and to obtain agreements from the Enterprises to 
co-fund further development and system integration. A portion of 
Aerospace Technology program funding will be allocated for co-funding 
the transition of ultra-low power electronics technology to the 
Enterprises. The strategy of requiring co-funding from the Enterprise 
customers in combination with Aerospace Technology co-funding insures 
that the Enterprises are committed to using the technology in their 
missions. In addition, the investigators selected via the NRA will be 
teamed with a NASA field Center (Goddard Space Flight Center or Jet 
Propulsion Laboratory) to insure that the development of electronic 
devices is focused on practical and near-term mission applications. The 
NASA Center will act as the bridge between the investigator and the 
Enterprise customer by integrating the electronic devices into 
prototype instruments and data systems. Validation of ultra-low power 
electronics technology in flight experiments such as those sponsored by 
the New Millennium Program will also be activity pursued.
                                 ______
                                 
               Questions Submitted by Senator Mike DeWine

                    NEXT GENERATION TURBINE ENGINES

    Question. NASA's plan is to reduce funding for aeronautics nearly 5 
percent over the next 5 years. This is of significant concern to me. 
Further, there are key advancements in technology, such as intelligent 
propulsion systems, which are critical to fuel efficient and 
environmentally benign turbine engines. This engine technology needs to 
be demonstrated at an appropriate level so that industry can 
incorporate the technology into future engines. What are NASA's plans 
for advancement and demonstration of intelligent propulsion systems for 
next generation turbine engines?
    Answer. The Vehicle Systems Program, and in particular, the Ultra 
Efficient Engine Technology (UEET) and Quiet Aircraft Technology (QAT) 
projects are developing the enabling turbine engine technologies that 
will allow U.S. industry to design and bring to market next generation 
commercial engines which will have unsurpassed levels of performance 
with significantly reduced levels of environmental impact (emissions 
and noise). In order to adequately reduce the risk of U.S. industry 
incorporating these technologies in future designs, plans are being 
developed to partner with industry and the Department of Defense (DOD) 
to conduct ground demonstrations of the highest priority (i.e. highest 
pay off) technologies. These tests will be conducted under cost sharing 
arrangements between NASA and the industrial/DOD partners. In addition, 
the UEET project is currently developing a limited portfolio of 
technologies, which will contribute to future intelligent propulsion 
systems. As these intelligent engine technologies are matured they will 
also be demonstrated in appropriate ground test demonstrations 
utilizing cost sharing arrangements. These intelligent engine 
technologies are being developed through partnerships with 
universities, industry, and DOD working with NASA research personnel.

                           PROJECT PROMETHEUS

    Question. I strongly support NASA's Nuclear Systems Program to 
enable new science discoveries by using advanced power and electric 
propulsion systems. This includes the initiative started in fiscal year 
2003 as well as the proposed acceleration called Project Prometheus.
    Answer. The objectives of the Nuclear Systems Initiative proposed 
and approved in the fiscal year 2003 budget remain essentially the 
same, but the initiative has been renamed Project Prometheus. The only 
significant proposed programmatic change to the initiative for fiscal 
year 2004 is the commencement of the first mission to use Project 
Prometheus technology: the Jupiter Icy Moons Orbiter (JIMO).
    Question. What are NASA's plans to insure that these critical power 
and electric propulsion technologies continue to be advanced and 
demonstrated?
    Answer. Recognizing the enormous potential of this initiative, NASA 
has placed a high priority on advancing and demonstrating Project 
Prometheus power and propulsion technologies. We are committed to 
advancing these technologies by competitively tapping the talents, 
experience, and innovative minds within industry, academia, and other 
agencies of the U.S. government, such as the Department of Energy 
(DOE). We will also fully utilize the expertise and technical 
capabilities of several NASA centers in the areas of: electric 
thrusters; power conversion and power management; mission design, 
development and operations; large spacecraft structures and systems; 
engine and propulsion system design; and systems engineering and 
integration for complex programs.
    Last year's budget included only a nuclear technology research 
program, with the first demonstration mission deferred until additional 
analysis indicated that such a mission was both highly desirable and 
likely to be technically feasible. That analysis has been undertaken 
and suggests that a revolutionary new science mission may well be 
feasible. The end result, JIMO, will allow NASA to demonstrate the 
technologies formulated within Project Prometheus. Future mission 
concepts will depend on developments in the years to come.
    Question. What will be the role of NASA's Glenn Research Center in 
advancing, demonstrating and developing these systems?
    Answer. NASA's Glenn Research Center will be involved in several 
aspects of management and technology development in Project Prometheus. 
The exact role over time will be based on the technologies identified 
as the most promising propulsion and power candidates as well as 
Glenn's focus within Project Prometheus, which is in the areas of power 
generation, power conversion, and electric propulsion technologies.
    Glenn is already playing a key role in the research and development 
of advanced radioisotope power conversion. A major activity is the 
development of the Stirling Radioisotope Generator (SRG), a candidate 
power source for a 2009 Mars mission. Drawing on the expertise at 
Glenn, DOE, and the industry development team, the SRG will likely 
achieve a four-fold improvement in the power conversion efficiency over 
current radioisotope power sources. The SRG and other power conversion 
and propulsion technologies being developed will have application 
across a broad range of potential missions.

               BIOLOGICAL AND PHYSICAL RESEARCH PROGRAMS

    Question. NASA's programs in biological and physical research are 
crucial not only to accomplishing NASA's mission, but also to the 
health and well being of our citizens here on earth. Interdisciplinary 
research between the biological and physical sciences is particularly 
beneficial. Further, key collaborations between NASA, universities and 
research hospitals, such as the John Glenn Biomedical Engineering 
Consortium, can contribute immeasurably to NASA and the Nation. What 
are NASA's plans for continuing and enhancing these consortia?
    Answer. The John Glenn Biomedical Engineering Consortium (BEC) was 
established in 2002, and currently carries out 10 research projects--
each funded for 3 years--to address medical risk issues associated with 
human space flight that have been identified in the NASA 
Bioastronautics Critical Path Roadmap. The BEC is part of the Glenn 
Research Center's (GRC) new interdisciplinary program in Bioscience and 
Engineering that has been created to effectively leverage recent 
scientific and technological advances in the physical sciences and 
microgravity engineering disciplines. The consortium was designed to 
enhance NASA's progress in overcoming challenges in space biomedical 
research and to optimize the productivity of the space biotechnology 
program. Other components of the Bioscience and Engineering activity 
include interagency collaborations (National Eye Institute, National 
Cancer Institute, National Institute of Child Health and Development), 
Space Act agreements with the private sector in biomedical and 
biotechnology research, peer-reviewed research carried out by academic, 
private, and government institutions, and the NASA Bioscience and 
Engineering Institute (NBEI), which was recently selected through 
independent peer-review.
    NASA's long range plan for the John Glenn BEC is to enable it to 
significantly contribute to the NASA's goals in Biomedical and 
Biotechnology research by establishing strong links to the extramural 
and intramural NASA research programs; by collaborations with other 
Federal agencies; and by partnering with the private sector. John Glenn 
BEC has pledged to achieve a self-sustaining status through funding 
from the above three sources.
    It is the intention of NASA to continue supporting consortia such 
as the John Glenn BEC in the future. The agreements governing our 
relationships with such consortia contain sunset clauses that allow for 
competitive selection that motivate these entities to become self-
supporting. NASA will continue to aggressively pursue commercial and 
academic entities as participants in technological collaborations that 
are compatible with NASA's Mission and Vision.

           INNOVATIVE TECHNOLOGY TRANSFER PARTNERSHIPS (ITTP)

    Question. Economic development is a national and regional priority. 
NASA's technology has been a strong contributor to the Nation's 
economic growth, and I believe will continue to be in the future. While 
the President's proposal changes NASA's Commercial Technology Program 
into Innovative Technology Transfer Partnerships, I am still concerned 
as to how the goal of getting NASA's technology into the marketplace 
will occur.
    Answer. As described in the President's Fiscal Year 2004 Budget 
proposal for NASA, our primary emphasis would shift toward partnerships 
that engage the development of technologies directly beneficial to NASA 
missions. Under the proposed plan for Innovative Technology Transfer 
Partnerships (ITTP), NASA would continue to support the necessary 
efforts to document and license NASA technologies and make them 
available for use by the private sector. While the Agency would reduce 
the amount of active outreach activities to industry, we would conduct 
a reformulated technology transfer program that relies on the use of 
the eCommerce and web-based systems to present information on 
technology that might be applicable for use by the private sector. The 
National Technology Transfer Center will continue to be one of the 
resources we use to transfer technology to the private sector.

        COMMUNICATIONS, NAVIGATION AND SURVEILLANCE (CNS) SYSTEM

    Question. A key concern is the National Airspace System and the 
need to incorporate advanced technology into that system through a 
cooperative effort between NASA and the FAA. In particular a 
transformed Communications, Navigation and Surveillance (CNS) system 
using advanced space communications technology is critical. What are 
NASA's plans for support of this CNS technology?
    Answer. NASA has developed a research plan in communication, 
navigation, and surveillance (CNS) technologies, which focuses on 
space-based solutions to support the transformation of the National 
Airspace System (NAS) to meet future demands. The objective of this 
effort is to develop and evaluate critical CNS technologies, which will 
allow an integrated space-based digital airspace. In its fiscal year 
2004 budget request, NASA has proposed to initiate this effort with the 
first objective being definition of CNS requirements and associated 
technologies for the future NAS.

               NEXT GENERATION LAUNCH TECHNOLOGY PROGRAM

    Question. I believe it is imperative for its future that NASA 
continue to develop advanced technology for future reusable launch 
vehicles to make them safer, more reliable and more cost effective. The 
Next Generation Launch Technology program is making significant 
progress in advancing critical technologies for NASA and other national 
needs in collaboration with the DOD. What are NASA's plans for this 
program?
    Answer. The NGLT Program is a critical element of NASA's Integrated 
Space Transportation Plan (ISTP), which is comprised of the Shuttle 
Life Extension Program, the OSP Program and the NGLT Program. As NASA's 
advanced launch technology development program, NGLT will advance the 
state-of-the-art in critical and high-payoff technologies to enable 
low-cost, reliable, and safe future generations of fully and partially 
reusable launch vehicle systems. NGLT is oriented to support an Agency 
decision in 2004 on whether to proceed with a risk-reduction phase for 
a future NASA launch system that would be operational in the 2014-15 
timeframe. All elements within NGLT seek to advance technologies that 
enable missions that are currently not technically or economically 
feasible. These missions include the exploration and development of 
space, enabling new commercial space markets, and enhancing the 
Nation's security. NGLT investments are not only enabling future launch 
systems, but also support potential upgrades to existing systems such 
as EELV and the Space Shuttle.
    In cooperation with DOD, the NGLT program is a major contributor to 
two of three ``pillars.'' The three pillars, High-Speed/Hypersonics, 
Space Access, and Space Technology, represent the building blocks in 
the integrated effort between NASA and DOD, the National Aerospace 
Initiative (NAI). In leading the Space Access pillar of the NAI, the 
NGLT will co-execute an integrated long-term national technology plan 
for Space Access Technology with the DOD. It is a priority to integrate 
the objectives of NASA and the USAF. The NLG's participation in this 
effort will serve to strengthen cross-agency relationships by 
addressing common needs and showing interdependencies with the High-
speed Hypersonics Pillar, and identifying and mapping technologies to 
potential development programs.
                                 ______
                                 
                Question Submitted by Senator Herb Kohl

COMMERCIAL TECHNOLOGY AND COMMERCIAL SPACE PRODUCT DEVELOPMENT PROGRAMS

    Question. I am concerned about NASA's decision to terminate funding 
for Commercial Technology and Commercial Space Product Development 
programs. The Commercial Technology Program has led to the creation of 
vital technology partnerships between government, industry, and the 
academic world and has promoted the commercialization of NASA research 
and development. The Commercial Space Centers (CSCs) have played a 
critical role in NASA's biotechnology research. The Wisconsin Center 
for Space Automation and Robotics, located at the University of 
Wisconsin-Madison, has spun-off three commercial companies and set up 
partnerships with many established businesses. Thanks to these 
programs, the first seed-to-seed plant growth experiment was 
successfully conducted during a recent International Space Station 
mission with funding from a company located in Green Bay, Wisconsin.
    If the American public is to reap the benefits of NASA innovation 
and expertise, successful technology transfer programs must continue. 
Given the clear benefits of CSCs, why have you decided to eliminate 
Commercial Technology and Commercial Space Product Development 
programs? How do you plan to maintain the exchange of biotechnology 
innovation among universities, private businesses, and government?
    Answer. The fiscal year 2004 budget request for the Office of 
Biological and Physical Research (BPR) responds to the recommendations 
for research areas identified as high priority in the report by the 
Research Maximization and Prioritization (ReMAP) task force in 2002. As 
the ISS evolves from construction to continuous on-orbit research 
capability, the task force recommended that NASA prioritize the use of 
its unique, space-based research capability. To fully support the NASA 
vision, and in-line with these recommendations, BPR's new research 
strategy focuses on undertaking activities necessary to extend the 
human exploration of space. The NASA Advisory Council (NAC) and the 
Biological and Physical Research Advisory Committee (BPRAC) endorse 
this general strategy, as do the Research Partnership Center (RPC) 
Directors. In a limited budget environment, to accommodate funding 
increases in these programmatic areas, funding must be reduced 
elsewhere.
    Just as the BPR fundamental and applied research programs are 
realigning with the BPR research strategy and the Agency's mission, the 
SPD program and the associated RPCs will also strategically reorient 
their goals to maximize the benefits of ISS research. Again, the RPC 
Directors support this realignment.
    The current 15 RPCs are engaged in areas such as biotechnology, 
biomedicine, advanced materials processing, agribusiness, spacecraft 
technology and communications development. Where these also support the 
priority research in our Enterprise (and other Enterprises), the RPCs 
will continue to be supported. Some of the ongoing work is not aligned, 
so the fiscal year 2004 budget request proposes a reduction in the 
annual budget in RPCs from fiscal year 2003 levels, with the full 
reduction to be realized by fiscal year 2006. The proposed budget 
reductions will be completed only after a comprehensive and objective 
assessment of the present commercial research program, including 
feedback from an ongoing independent review of the RPC program, to be 
completed in fiscal year 2004. The RPC Center Directors are fully 
engaged in this process and will actively participate in the program 
restructuring. A recommendation regarding the refocused program, 
including updated budget projections, will be submitted with NASA's 
fiscal year 2005 budget proposal.
    NASA will continue to facilitate the commercialization of space, 
and will focus on ensuring that commercial researchers have efficient 
access to space. NASA is seeking to provide more efficient means of 
access to the International Space Station (ISS) for all users. NASA's 
Integrated Space Transportation Plan (ISTP) is also being updated to 
address, among other things, assured cargo access.

                         CONCLUSION OF HEARINGS

    Mr. O'Keefe. Yes, sir, thank you, Senator.
    Senator Shelby. Thank you. The subcommittee is recessed.
    [Whereupon, at 12:03 p.m., Thursday, May 1, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
